                              United States Department of State
                              and the Broadcasting Board of Governors

                              Office of Inspector General
Office of Inspector General

                              Semiannual Report to the Congress



                              April 1, 2003 to September 30, 2003
                              Summary of OIG Accomplishments

       Financial Results:
       Questioned costs
             Issued during the reporting period                                       $4,795,000
             Management decision during the reporting period                          $2,600,000

       Recommendations for funds to be put to better use
             Issued during the reporting period                                       $ 231,000
             Management decision during the reporting period                          $ 657,000

       Investigative recoveries                                                       $ 828,912

       Investigative Results:
       Cases opened                                                                            17
       Cases closed                                                                            21
       Judicial actions                                                                        16
       Administrative actions                                                                  10
       Hotline and complaint activity                                                         158

       Reports Issued:                                                                         75




                 Pictured on the front cover: Courtyard of Embassy Mexico City, Mexico

               All embassy pictures provided by Office of Overseas Buildings Operations


                                  Requests for additional copies of this publica-
                                  tion should be addressed to:

                                           Office of Inspector General
                                           U.S. Department of State
                                           OIG/ADM, Room 810
                                           1700 North Moore Street
                                           Arlington, VA 22209



                                        Department of State Publication 11097
                                             Office of Inspector General




96   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
                               TABLE OF CONTENTS


PREFACE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
25TH ANNIVERSARY OF THE INSPECTOR GENERAL ACT OF 1978 . . . . . . . . . . . . . . . 3
EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
CONGRESSIONAL ACTIVITIES AND OUTREACH . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

DEPARTMENT OF STATE
  SECURITY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
  INSPECTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
  AUDITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49
  INFORMATION TECHNOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 57
  INVESTIGATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 61
  APPENDIX 1: INVESTIGATIVE ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 67
  APPENDIX 2: REPORTS ISSUED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 69
  APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES
      Table 1: Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 73
      Table 2: Funds to be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 74
   APPENDIX 4: RESOLUTION OF REPORTS & RECOMMENDATIONS . . . . . . . . . . . 75

BROADCASTING BOARD OF GOVERNORS
  AUDITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 77
  INFORMATION TECHNOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 83
  APPENDIX 1: Investigative Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 85
  APPENDIX 2: Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 87
  APPENDIX 3: Savings and More Effective Use of Resources
      Table 1: Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 89
      Table 2: Funds to be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 90
  SIGNIFICANT PROBLEMS, ABUSES, AND DEFICIENCIES . . . . . . . . . . . . . . . . . . . . 91
  SIGNIFICANT MANAGEMENT SUCCESSES IN IMPLEMENTING
      OIG RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 91

LIST OF ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 93
INDEX OF REPORTING REQUIREMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 95



Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003                                    97
                                       PREFACE



     The Inspector General Act of 1978, as amended (PL 95-452), requires each
Inspector General to prepare a semiannual report summarizing the activities of that
Office of Inspector General for submission to the appropriate congressional com-
mittees or subcommittees. The attached report provides information on our activi-
ties during the indicated period ending September 30, 2003. The summaries reflect
the conditions at the post or office at the time of the inspection or audit.

    In this reporting cycle, we are commemorating a milestone – the 25th Anniver-
sary of the Inspector General Act of 1978. In the “Special Event” section of this
report, we have included a brief discussion regarding the history of the act and of
the Department of State’s Office of Inspector General.

    The mission of the Office of Inspector General is to serve as an independent,
objective reviewer and evaluator of the operations and activities of the U.S. Depart-
ment of State and the Broadcasting Board of Governors.

    The Office of Inspector General assesses those operations and activities with a
view toward promoting effectiveness, efficiency, and economy and seeks out in-
stances of fraud, waste, abuse, and mismanagement as we work to prevent them.
The Office of Inspector General reports to the Secretary of State, the Broadcasting
Board of Governors, and the Congress, keeping them fully and promptly informed
of significant developments and serious concerns.




                                                                   Anne W. Patterson
                                                             Deputy Inspector General
                                                                     October 31, 2003




Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   1
2   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
                                 SPECIAL EVENT


The 25th Anniversary of the Inspector General Act

    Nearly 40 years ago, Congress sought to increase oversight of federal programs
and operations and to create a mechanism to report independently the results.
Congress passed the Inspector General Act of 1978, which established Inspectors
General to keep agency heads and Congress informed about program or operational
deficiencies. The Act gave Inspectors General the authority and responsibility to be
independent forces for effectiveness, efficiency, and economy within the federal
government.

    The various offices of Inspectors General were not all created at the same time.
On August 27, 1986, the U.S. Department of State’s Office of Inspector General
(OIG) was established. Legislative history shows that the Foreign Relations Authori-
zation Act for FY 1986 and 1987 (PL 99-93) amended the Inspector General Act to
include the U.S. Department of State (Department) and the Foreign Service. The
Omnibus Diplomatic Security and Antiterrorism Act of 1986, (PL 99-399) required
the establishment of an independent OIG at the Department by October 1, 1986.
The next page includes a list of the names of those who served as Inspectors Gen-
eral for the Department since 1978.

    Below them are the names of those who served as Inspectors General for the
U.S. Information Agency (USIA). Passage of the Omnibus Appropriation Act of
1996 (PL 104-28) merged the Office of Inspector General of the USIA, including
the Broadcasting Board of Governors with that of the Department and Arms
Control and Disarmament Agency (ACDA), effective April 26, 1996. The Foreign
Affairs Reform and Restructuring Act of 1998 (PL 105-277) integrated ACDA into
the Department on April 1, 1999, and USIA into the Department on October 1,
1999.

    Today, there are 57 Inspectors General. The President’s Council on Integrity and
Efficiency reported that in FY 2002 Inspectors General efforts accounted for nearly
$72 billion in potential savings as a result of recommendations and investigative
recoveries. The Inspectors General generated: 10,700 successful prosecutions;


Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   3
      suspensions or debarments of over 7,600 individuals or businesses; and almost 2,200
      civil or personnel actions. The community as a whole processed more than 234,000
      complaints, received primarily through OIG fraud hotlines; issued more than 4,600
      reports; and testified before Congress more than 90 times.



      Former Inspectors General (Since 1978)

              Name                                       Date
              Vacant                                     August 25, 2003 (As of)
              Anne M. Sigmund (Acting)                   January 24, 2003
              Clark Kent Ervin                           August 3, 2001
              Anne M. Sigmund (Acting)                   February 4, 2001
              Jacquelyn L. Williams-Bridgers             April 7, 1995
              Harold Geisel (Acting)                     June 12, 1994
              Roscoe S. Suddarth (Acting)                February 15, 1994
              Sherman M. Funk                            August 14, 1987
              H. Byron Hollingsworth (Acting)            August 27, 1986
              William C. Harrop (Acting)                 August 16, 1985
              William C. Harrop                          November 15, 1983
              Robert L. Brown                            January 21, 1981
              Robert C. Brewster                         January 14, 1979
              Theodore L. Eliot, Jr.                     July 5, 1978




      United States Information Agency (Since
      1987) (est. 1988 Amendments)


              Name                                        Date
              Marian C. Bennet                            November 28, 1993
                                                           – April 26, 1996
              Terence J. Shea (Acting)                    May 1, 1993
              George F. Murphy, Jr.                       August 6, 1990
              Anthony J. Gabriel                          July 2, 1987




4   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
                         EEXECUTIVE
                            XECUTIVESSUMMARY
                                      UMMARY




    During this semiannual reporting period, Office of Inspector General (OIG)
reviewed and monitored Department of State (Department) and Broadcasting Board
of Governors (BBG) programs, activities and operations, continuing to focus on the
following four strategic goals:




The Department and BBG adequately protect
the people, information, and facilities under
their control in the United States and abroad.

    The protection of people, information, and facilities of the Department and
BBG is paramount to each agency’s mission and operations. OIG enhances their
protection by conducting physical security inspections, audits, and special reviews.
Security oversight inspections examine the full scope of a mission’s security pro-
gram--physical, personal, procedural, technical, and information systems security and
emergency preparedness. OIG also conducts information security inspections and
reviews, which assess vulnerabilities of each agency’s automated information sys-
tems. During this reporting period, the Office of Security and Intelligence Oversight
conducted 20 security oversight inspections and two follow-up security reviews.
These reports discuss specific security vulnerabilities within Department and BBG
missions. Therefore, they are discussed in a classified annex.

    The Office of Information Technology conducted two information security
inspections that also are included in the classified annex concerning Embassy Vienna
and Embassy Athens. In addition, OIG conducted two information security reviews
in accordance with the Federal Information Security Management Act of 2002
(PL 107-347)(FISMA). Each review — one of the Department and the other of
BBG — examined each agency’s compliance with key requirements of FISMA.




Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   5
           In terms of the Department’s compliance with FISMA, OIG found that signifi-
      cant improvements had been made over the past year. However, several key areas,
      including the Department’s financial system, require senior management attention in
      order to develop fully and ensure the continuity of the Department’s systems secu-
      rity program. The Department concurred with OIG’s assessment and reiterated its
      commitment to continued emphasis on cyber security compliance.

          OIG also reviewed the Information Security Program at BBG based on the
      requirements of FISMA, and found that BBG has made limited progress in the past
      year and that much more needs to be done. BBG has developed a comprehensive
      system security plan for the International Broadcasting Bureau’s (IBB) Office of
      Computing Services and hired a contractor to assist in its efforts to meet FISMA
      requirements. BBG concurred with the five recommendations in OIG’s FISMA
      evaluation report and will be taking steps to ensure their implementation.




      The Department and BBG effectively,
      efficiently, and economically advance the
      Foreign Policy interests of the United States.

          As an objective reviewer of operations and activities of the Department and
      BBG, OIG conducts comprehensive inspections of embassies and diplomatic posts
      worldwide, international broadcasting installations, and the various bureaus and
      offices of the Department and BBG. OIG’s goal in conducting these reviews is to
      promote effectiveness, efficiency, and economy. During this reporting period, OIG
      conducted 33 inspections, of which 11 were of missions within the Bureau of
      European and Eurasian Affairs; five were of missions within the Bureau of Western
      Hemisphere Affairs; six were of missions within the Bureau of East Asian and
      Pacific Affairs; one inspection and two compliance reviews were of missions within
      the Bureau of African Affairs; seven were of domestic bureaus within the Depart-
      ment; and one was of a mission to an international organization.

          Key among OIG’s post inspections this period was that of Embassy Mexico City
      and its constituent posts, comprising the largest U.S. nonmilitary presence outside the
      United States. As such, this mission faces significant management challenges, includ-
      ing visa operations, rightsizing and administrative support. The magnitude of visa
      operations at Embassy Mexico City and Consulate General Ciudad Juárez is enor-
      mous – the embassy handles the largest volume of U.S. nonimmigrant visas of all
      overseas diplomatic missions and the consulate general processes the largest volume



6   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
of immigrant visas. Immigration remains one of the most sensitive bilateral issues
between the United States and Mexico. The mission must deal aggressively with the
propensity for visa fraud and malfeasance at the border, since a series of recent
incidents has implicated Foreign Service, Civil Service, Foreign Service national, and
contract employees. The significant growth in mission staffing is challenging. Staff-
ing grew by more than 35 percent between December 1996 and December 2002,
chiefly due to the size of consular operations, improved law enforcement coopera-
tion, and national security emphasis in the aftermath of September 11, 2001.

    OIG found that missions promote effective relations with host countries. Em-
bassy Helsinki is actively engaged in public outreach to raise the U.S. profile in
Finland and is working hard to bolster the bilateral relationship through regionally
focused initiatives and a strong network of people-to-people programs. Embassy
Belgrade also has been effective in the bilateral relationship since diplomatic relations
were restored in November 2000. Proactive embassy engagement resulted in
Yugoslav cooperation with the International Criminal Tribunal in The Hague, includ-
ing the surrender of Slobodan Milosevic. OIG’s inspection of Embassy Canberra
and its constituent posts revealed a strong bilateral relationship with Australia that
has led to highly productive defense, intelligence, and scientific cooperation.

     Some missions were experiencing significant internal management and opera-
tional challenges that require aggressive managerial responses. For example, even
though Embassy Port of Spain pursues an extensive agenda in furthering U.S.
bilateral and regional foreign policy objectives, rightsizing this post’s staff in the
aftermath of recent personnel turmoil and long-standing administrative problems
will be challenging. Poor vertical and lateral communication within Embassy Oslo
detract from effective operations and program development, and unclear lines of
authority for executive decisionmaking intensify these problems. Although Embassy
Lisbon has been effective in garnering Portuguese support for key U.S. policy objec-
tives, the mission suffers from an unusually wide range of administrative and person-
nel management problems that predate the current managerial team. These long-
standing problems adversely affect morale. In each of these cases, OIG recom-
mended aggressive and proactive managerial responses.

    Some posts face significant challenges to their physical conditions and environ-
ment. However, OIG commends personnel for persevering in carrying out their
duties despite conditions that might otherwise affect post operations. For instance,
Embassy Skopje continued to operate smoothly despite a series of crises that re-
sulted in an ordered departure. In the case of Embassy Antananarivo inspectors
noted serious concerns over the physical conditions of the chancery but praised
reporting, particularly regarding internal instability. For several posts, OIG noted



Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   7
      significant improvements in consular operations but identified a need for
      reconfiguration or additional space to accommodate new mandated requirements for
      visa operations.

           With regard to domestic bureaus and the U.S. Mission to the United Nations
      (USUN), OIG noted concerns over organizational alignment and staffing issues. In
      its inspection of the Office of Foreign Missions (OFM), OIG noted a lack of
      oversight and accountability by the Bureau of Diplomatic Security (DS). The Assis-
      tant Secretary for Diplomatic Security serves as the director of OFM, yet OFM
      focuses on implementing two priorities of the Office of the Under Secretary for
      Management. OIG recommended that OFM come under the direct supervision of
      the Under Secretary for Management. The Department disagreed, and remains
      committed to improving oversight and accountability of OFM. OIG will continue
      to monitor actions taken by the Department on this issue. The inspection of the
      Office of the Chief of Protocol (Protocol) also identified some overlapping duties
      between OFM and Protocol concerning the accreditation process. OIG recom-
      mended actions to better align each office’s mission and eliminate duplication. OIG
      praised the USUN for an appropriate mix of staffing and resources based on the
      Mission Performance Plan (MPP) to deal with current U.S. interests in the multilat-
      eral arena, although, OIG cautions that the Economic and Social Affairs Council
      section requires additional personnel to cover all of its issues in depth. OIG also
      recommended that the Department assess the impact of the longer tour of duty on
      the pool of available Foreign Service candidates.




      The Department and BBG have the necessary
      financial and support systems and controls
      to meet legal and operational requirements.

          OIG provides the Department and BBG with the benefit of timely, balanced,
      and credible assessments and audits toward improving each agency’s management
      and conduct of programs. During this reporting period, OIG continued reviewing
      the Department’s procurement practices, financial and information technology
      systems, and grant procedures.

          In response to a Senator’s request, the Office of Audits examined the
      Department’s procurement process and contract administration for obtaining legal
      services from a private law firm. The purpose of those legal services was to support



8   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
the Department in pending litigation before the Merit Systems Protection Board.
The Senator expressed concern about whether the Department had complied with
applicable contracting requirements in making the award and to ascertain whether
contract billings were properly supported and in accordance with contract terms.
Overall, OIG found that the Department had followed appropriate federal procure-
ment regulations in the solicitation and award phases for the contract and that costs
were generally supported but noted some areas for improving the process. The
Department generally agreed with OIG’s findings and recommendation.

    Foremost among OIG’s reviews during this period was a review of allegations
concerning a contract with the Department’s Humanitarian Demining Program
(PM/HDP) for integrated mine action services that were made in an independent
contractor’s report. That report identified contract irregularities and made recom-
mendations concerning strengthening contractor performance and PM/HDP’s
contract management. OIG’s review found that only four of the 30 alleged deficien-
cies identified in the contractor’s report were valid and that the methodology used
and the purported evidence were weak or nonexistent. In fact, OIG found that the
validated contract weaknesses appeared to be exceptions rather than systemic prob-
lems. OIG is of the opinion that the independent contractor’s work is so deficient
that its poor performance should be made a matter of record and the responsible
contracting officer should consider contractor suspension or debarment proceedings
against the independent contractor.

    In accordance with the Government Management Reform Act (Public Law 103-
356), OIG directed an independent, external, computer specialist to perform a
vulnerability assessment of the HYPERION Financial Management Application. As
a result, specialists found that the specific security features associated with the
HYPERION application appeared to function correctly and were well managed, that
security responsibilities were properly assigned and executed, and that a reasonable
set of security policies and procedures existed and were being implemented. How-
ever, most of the procedures were undocumented. A technical examination of the
information technology infrastructure that supported the HYPERION application
revealed only a limited number of relatively minor vulnerabilities.

    Also noteworthy is the Office of Information Technology’s assessment of the
Department’s effort to implement knowledge management (KM) strategies toward
improving its business operations. Specifically, OIG examined the Department’s
implementation through the Office of e-Diplomacy. OIG recommended the imple-
mentation of five key principles, including: (1) recognizing the benefits of KM to the
Department; (2) ensuring Department-wide support for KM; (3) appreciating the
cultural factor in KM; (4) building KM communities; and (5) using information



Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   9
       technology in KM. Prior to their implementation, OIG recommends that the
       Department identify its business requirements, such as its core diplomatic functions,
       as the basis for formulating its knowledge sharing approach.

            OIG conducted three reviews of BBG operations. OIG audited the BBG’s
       workforce restructuring plans and outline for a human capital plan, as required by
       the President’s Management Agenda. Although the agency had begun to address its
       human capital needs, OIG found that these plans did not include all staff, meet the
       criteria set forth in the consolidated guidance, nor fully comply with OMB standards.
       In part, OIG found that BBG is facing major human capital challenges and recom-
       mended improving its workforce planning effort.

            OIG reviewed Radio Free Asia (RFA) and found that although RFA is achieving
       its broadcasting mission, it could improve its administrative policies and procedures.
       Its budget process should include more input from its managers, and its hiring
       practices should be more standardized. This should help to improve the morale of
       RFA employees. OIG found that RFA was not following procurement policies and
       procedures and recommended that it revise its financial and administrative policies
       and procedures manual to address OMB requirements.

           OIG conducted a management review to evaluate the assignment of benefits for
       health, life, and retirement for Radio Free Europe/Radio Liberty (RFE/RL) and
       analyzed the process for selecting benefit providers. OIG found that RFE/RL had a
       consistent, equitable process in place for the assignment of employee benefits. The
       process RFE/RL uses to select benefit providers considers a range of factors. OIG
       recommended automatic enrollment of eligible employees for the Retirement Sav-
       ings Plan.




10   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
The Department and BBG ensure
accountability and prevent or eliminate
fraud, waste, abuse, and mismanagement in
programs and operations.

         OIG addresses allegations of fraud, waste, abuse, and mismanagement
related to Department and BBG programs and is committed to assisting each agency
with preventing fraud. During this semiannual period, OIG conducted investiga-
tions in the areas of theft, employee misconduct, and grant mischarges.

    In December 2002, OIG opened an investigation into an allegation that a con-
tract employee in a Department warehouse in Virginia, was stealing government
property and selling the items at various pawnshops. OIG confirmed that the
contract employee had pawned and sold specific items that had been listed in De-
partment inventory records. During an interview with OIG investigators in April
2003, the contract employee admitted pawning a total of 55 warehouse items valued
at approximately $18,000. The contract employee was immediately terminated from
employment. Subsequently, in July 2003, the contract employee pleaded guilty to a
felony charge of theft of government property. Sentencing was pending at the end
of this reporting period.

    In terms of employee misconduct, OIG investigated information alleging that an
employee had falsely claimed two-days’ absence from work for jury duty. As a result
of that investigation, OIG determined that the employee had falsified and submitted
District of Columbia Superior Court documents to justify her absence. The em-
ployee later admitted that she had not served on jury duty on the days in question
and had falsified the documents to preclude her from taking leave without pay. In
July 2003, the Bureau of Human Resources issued a four-day suspension to the
employee. OIG also investigated an allegation that a senior Department manager
had improperly released non-public information to an external entity. As a result of
OIG’s investigation, the Bureau of Human Resources issued a Letter of Admonish-
ment to the Department manager on May 23, 2003.




Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   11
           In July 2001, OIG opened an investigation based on information developed in an
       OIG audit indicating that a Department grantee had charged Department grant
       funds for travel costs that were not incurred. During the investigation, OIG investi-
       gators and auditors provided detailed information regarding this practice to the U.S.
       Attorney for the Eastern District of Virginia. On April 7, 2003, OIG was informed
       that the grantee organization had agreed to a settlement. In accordance with its
       terms, the grantee repaid the U.S. government $25,000.




12   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
    CONGRESSIONAL ACTIVITIES AND OUTREACH
Hearings
Hearings

Testimony


Subcommittee on National Security,
Emerging Threats, and International
Relations of the House Committee on
Government Reform

     On April 7, 2003, Ambassador Anne M. Sigmund, the Acting Inspector General
testified before the Subcommittee on National Security, Emerging Threats, and
International Relations of the House Committee on Government Reform on OIG’s
observations concerning, “The President’s Management Agenda: Rightsizing the U.S.
Presence Abroad.” The Acting Inspector General’s testimony highlighted OIG’s
efforts to systematically examine rightsizing of overseas presence as a part of our
routine inspections of missions, addressing the challenges faced and the advance-
ments made by the Department in this area. She also discussed OIG’s general
findings concerning security conditions at overseas missions. Ambassador William
H. Itoh, the Acting Deputy Inspector General, also testified at this hearing, but in his
former capacities as member and executive secretary of the Overseas Presence
Advisory Panel.




House Budget Committee

     On July 9, 2003, the Acting Inspector General Anne M. Sigmund, submitted
testimony to the House Budget Committee regarding waste, fraud, and abuse in
mandatory spending programs within the Department. Most of the Department’s
spending is on discretionary programs rather than mandatory spending programs.
Therefore, the Acting Inspector General’s testimony focused on OIG’s working



Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   13
       relationship with the Department and BBG to improve efficiency and effectiveness
         C
       withinONGRESSIONAL                   A
               their respective programs andCTIVITIES        AND
                                            operations to prevent             O
                                                                         UTREACH
                                                                  fraud, waste, and mis-
       management.




       House International Relations Committee

            Similarly, on September 4, 2003, Ambassador Anne M. Sigmund testified before
       the House International Relations Committee regarding, “Government Accountabil-
       ity: Efforts to Identify and Eliminate Waste and Mismanagement” as it pertains to
       the Department. Her testimony again focused on OIG’s working relationship with
       the Department and BBG to improve efficiency and effectiveness within their
       respective programs and operations in an effort to prevent fraud, waste, and misman-
       agement. Subsequently, OIG responded to questions for the record received from
       the Chairman and Ranking Member of the Committee.



       Congressional Requests
           During this reporting period, OIG conducted an internal assessment of our
       inspection process as requested in Conference Report 108-10 (February 12, 2003).
       Conferees expressed concern over waiving the statutory requirement that every post
       be inspected every five years. Specifically, they requested OIG to report on an
       approach to our work that re-engineered the inspection process and reprioritized
       tasks within existing resources. As a result of that self-assessment, OIG developed a
       multidisciplinary approach to the inspection process, incorporating key aspects of
       our traditional post, security and intelligence oversight, and information technology
       inspections. This integrated approach will enhance OIG’s ability to achieve econo-
       mies and efficiencies in conducting our work. On July 2, 2003, OIG reported to the
       House and Senate Appropriations Committees; the Senate Subcommittee on Com-
       merce, Justice, State and the Judiciary; the House Appropriations Subcommittee on
       Commerce, Justice, State, the Judiciary and Related Agencies; the Senate Committee
       on Foreign Relations; and the House Committee on International Relations. Roll out
       on this new approach began with our September 2003 inspection cycle.




14   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
    OIG conducted the following additional reviews in response to legislative man-
    CONGRESSIONAL ACTIVITIES AND OUTREACH
dates and requests from Congress:
·   In response to a request by the Chairman for the House Appropriations
    Subcommittee on the Departments of Commerce, Justice, State, the Judiciary
    and Related Agencies, OIG conducted a review and briefed subcommittee
    staff regarding whether visa laws, policies, and procedures in effect at that time
    were properly followed with regard to visas issued to the September 11, 2001,
    hijackers.
·   In response to a request from a Senator, OIG conducted a review into the
    procurement and contracting procedures used by the Department to obtain
    legal services and support from a private law firm for litigation before the
    Merit Systems Protection Board.
·   At the request of the Chairman of the House International Relations Commit-
    tee, OIG provided information concerning OIG projects and subsequent
    recommendations for improving economy and efficiency within Department
    operations and methods for preventing fraud, waste, and mismanagement,
    including steps taken by the Department to address many of our concerns and
    recommendations.
·   In August 2002, OIG provided preliminary information concerning the
    Department’s actions to comply with FISMA in response to a request from the
    House Subcommittee on Technology, Information Policy, Intergovernmental
    Relations, and the Census for the Committee on Government Reform.
·   As mandated by FISMA, OIG conducted independent assessments of the
    Department’s and the Broadcasting Board of Governors’ compliance in
    establishing and ensuring effective controls over information technology
    resources.




Proposed Legislation Reviewed by the Office
of Inspector General

    During this reporting period, OIG monitored the following proposed legislation:
·   HR 1950, S 790, and S 925 – The Foreign Relations Authorization Act, Fiscal
    Year 2004
·   HR 1966, S 1240, and S 1160 – The Millennium Challenge Act of 2003



Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   15
       ·   HR 2799 and S 1585 Departments Of Commerce, Justice, State, the Judiciary,
           and Related Agencies Appropriation Bills, 2004

           The Acting Inspector General also met with staff of the House and Senate to
       review and comment on a variety of issues and questions on operations and pro-
       grams of the Department and BBG.



       Outreach/Media Assistance
           OIG briefs all newly appointed ambassadors and new Foreign Service officers on
       the role and function of the OIG, as well as specific issues related to their respective
       assigned embassies. OIG also participates in classes of new Civil Service employees
       on the role, mission, and services provided by OIG. During this semiannual report-
       ing period, OIG participated in three Ambassadorial Seminars, two Deputy Chief of
       Mission Briefings, three Foreign Service Officer Orientations, two New Civil Service
       Officer Orientations, a Presidential Management Intern Briefing, and the annual
       Worldwide Foreign Service Nationals Conference.

           In May 2003, the Acting Inspector General initiated a successful pilot effort to
       distribute OIG reports to members of Congress and their staffs via CD-ROM.

         In July 2003, OIG hosted a delegation from the National Counter Corruption
       Commission of Thailand and presented a briefing on OIG’s anti-corruption efforts.

           During this reporting period, OIG responded to media inquiries on its 2001 and
       2002 reviews of the Iraqi National Congress Support Foundation, OIG’s investiga-
       tion of a company providing bomb sniffing dogs, as well other OIG activities and
       reports.




16   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
Policy Review


Review of existing and proposed regulations

    During this period, OIG continued its practice of reviewing and making sugges-
tions on regulations and policies to improve the programs and operations of the
Department. OIG made numerous recommendations that were adopted by the
Department on security, information technology, communications, human resources,
accounting for funds, strengthening management and internal controls, and more
clearly defining lines of authority to ensure accountability, and preventing fraud,
waste and mismanagement.




Participation on the President’s Council on
Integrity and Efficiency

    OIG continued to participate on the President’s Council on Integrity and Effi-
ciency and the various committee projects on crosscutting issues.




Federal Managers’ Financial Integrity Act

     OIG continued to play an essential role as a non-voting member of the
Department’s Management Control Steering Committee, which implements the
provisions of the Federal Managers’ Financial Integrity Act and Office of Manage-
ment and Budget (OMB) Circular A-123 on Management Accountability and Con-
trol. OIG provides an independent, objective quality assurance for the committee to
determine if material weaknesses or reportable conditions exist and if corrective
actions have been implemented by the Department to meet the committee’s criteria
for removal from the annual accountability report.




Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   17
       Progress in Implementing the Government
       Performance and Results Act

           During this period, OIG issued several reports that addressed Department and
       BBG efforts to establish effective performance measures for their programs and
       operations, as required under the Government Performance and Results Act. OIG
       reports issued under requirements of FISMA addressed Department and BBG
       efforts to establish effective performance measures in support of their information
       security goals (see IT-A-03-14 and IT-A-03-15). For the Department, OIG found
       that, although a process for establishing information security performance goals had
       been put in place, it was still immature and not fully operational.

           An OIG audit of the Department’s Domestic Travel Card Program found that
       the Department had not developed measurable performance goals specific to the
       travel card program. OIG recommended that the Department develop objectives,
       strategies, and performance measures for the program as a useful tool to improve
       management of the program.

           In addition to its audits and inspections, OIG has begun working more closely
       with the Department’s Office of Strategic Policy and Planning in the Bureau of
       Resource Management (RM/SPP) to improve coordination of OIG and Department
       planning efforts and to better align OIG planning and activities with the
       Department’s goals and priorities. For example, OIG inspection teams also have
       begun meeting with RM/SPP representatives prior to the beginning of domestic
       bureau inspections to ensure that OIG is aware of key issues related to the Bureau
       Performance Plan, Department priorities, and other areas of concern in order to
       provide a more effective and meaningful review of bureau performance and effec-
       tiveness.

           OIG has assisted the Department in identifying programs to be reviewed under
       the Office of Management and Budget’s Performance Assessment Review Tool
       (PART) and has identified OIG reports and recommendations that support the
       Department’s PART assessments. OIG also has coordinated with the Department in
       establishing a schedule for program evaluation of Department programs, as required
       under the strategic planning requirements set forth in OMB Circular A-11.




18   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
Progress on the Department’s Federal
Financial Management Improvement Act
Remediation Plan

   Agency financial management systems must comply with the Federal Financial
Management Improvement Act of 1996 (FFMIA) requirements. If they do not, the
agency must establish a remediation plan, which includes the resources, remedies,
and intermediate target dates to bring the systems into substantial compliance. In
March 2000, the Department established a remediation plan to bring its systems into
compliance by September 2003. It updated the plan in October 2001.

    Under FFMIA, OIG is required to report semiannually instances when, and
reasons why, an agency has not met the intermediate target dates established in the
remediation plan. OIG reviewed the Department’s progress as of May 2003 in
meeting the intermediate target dates it had established.

    The Department had made considerable progress in its efforts to comply with
FFMIA by completing 71 percent of its remediation plan projects and, as a result,
reducing its degree of noncompliance. However, OIG found that the Department
had extended intermediate and completion target dates for three projects: Business
Continuity and Contingency Plans, Information Systems Network Security, and
Central Financial Planning System. Extended target dates for the first two projects
were the result of delays in project initiation and adding steps deemed critical to the
project. The Department restructured the third project, the Central Financial
Planning System, and established new milestones and target dates. The above
projects are not expected to be fully completed until FY 2004 and FY 2005.

    Additionally, in the Audit of the U.S. Department of State 2002 and 2001 Princi-
pal Financial Statements (AUD/FM-03-18, February 1, 2003), an independent
contractor reported that the Department’s remediation plan also needed to address
specifically the management of grants and other types of federal assistance. As of
May 2003, the Department had not addressed this issue in its remediation plan.




Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   19
20   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
                                      SECURITY


     During this reporting period, the Office of Security and Intelligence Oversight
conducted 20 security oversight inspections, two follow-up reviews, and one special
review. Eleven of these inspections were conducted in conjunction with manage-
ment reviews by OIG’s Office of Inspections and were limited to an examination of
physical security and emergency preparedness. Full-scope inspections, covering the
full-range of a mission’s security program were conducted at nine missions.

    Because these reports discuss specific security vulnerabilities at the Department
and its missions, report summaries will be published as a separate, classified annex to
this report. A list of the classified reports issued during this semiannual period may
be found in Appendix 2 of this report.




Review of the Issuance of Visas to the
September 11, 2001, Terrorists (ISP-CA-03-
27)

    The report was issued at the request of the Chairman of the House Appropria-
tions Subcommittee on the Departments of Commerce, Justice, State, the Judiciary
and Related Agencies regarding pre-September 11, 2001, visas issued to the 19
terrorist hijackers. OIG reviewed whether visa laws, policies, and procedures in
effect at the time were properly followed with regard to visas issued to the hijackers.
Specifically, the request focused on whether their visa applications were (1) de-
stroyed, (2) filled in completely, (3) subject to denial or further scrutiny, including
personal interviews, or (4) accepted and visas issued within existing policy and
regulation. In addition, it asked whether the Department had information linking
any of the hijackers to terrorist concerns prior to granting visas. OIG ascertained
that prior to granting the hijackers visas, the Department had no information linking
them to terrorist concerns.




Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   21
22   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
                                  INSPECTIONS


Western Hemisphere Affairs


Embassy Mexico City, Mexico, and
Constituent Posts (ISP-I-03-50)

    Mission Mexico is, overall, the largest nonmilitary U.S. government presence
abroad. It is also arguably the most complex. In addition to the super-sized Em-
bassy Mexico City, there are four consulates general (each of which is larger than
many embassies), five consulates, and 13 consular agencies. In many respects it is a
loose federation of self-contained operations.

    Staffing at Mission Mexico grew 35.5 percent between December 1996 and
December 2002 (from a total of 1259 to 1670). Much of this increase reflected
more rigorous requirements for visa processing, and the need for improved law
enforcement and national security cooperation after September 11, 2001. There is a
continuing, seemingly relentless pressure for further growth. This is being addressed
piecemeal.

    Difficult judgments are required to address rightsizing issues at Mission Mexico.
All agencies need to define projected staff requirements, with approval of the
respective headquarters in Washington. These projections are required immediately
in anticipation of construction of a new embassy compound at Mexico City and a
new consular office building at Ciudad Juárez.

     Mission leaders need to pay greater attention to administrative aspects of the
mission. The Department bears a disproportionate share of International Coopera-
tive Administrative Support Services (ICASS) participation at Embassy Mexico City,
although there are 35 participants. Administrative support, whether in terms of
personnel or financial resources, has not kept pace with the growth in program staff.
Financial management is an area of relative weakness. Complicated and tardy
processing of vouchers is the most persistent complaint at constituent posts.



Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   23
           Immigration, both legal and illegal, is one of the most sensitive bilateral issues.
       Visa processing is done efficiently at Embassy Mexico City, the world’s highest
       volume nonimmigrant visa (NIV) post. However, immediately preceding and
       during the inspection, the mission confronted a series of incidents of visa fraud and
       malfeasance at border posts. Foreign Service, Civil Service, Foreign Service national
       (FSN), and contract personnel have been implicated. Senior mission management
       should have acted more aggressively to address the problems, especially in the case
       of blatant mismanagement of the NIV function at Consulate General Ciudad Juárez.




       Inspection of Embassy La Paz, Bolivia
       (ISP-I-03-15)

           Embassy La Paz suffers from lack of leadership and plummeting morale in the
       absence of an ambassador. The Bureau of Western Hemisphere Affairs should
       designate an experienced manager to oversee the embassy until the new ambassador
       arrives.

           The narcotics affairs section is doing a good job of implementing and coordinat-
       ing U.S. counternarcotics policies and programs in Bolivia. The Bureau of Interna-
       tional Narcotics and Law Enforcement Affairs (INL) should continue regional
       meetings between the narcotics affairs section and U.S. counternarcotics agencies in
       the region. Populist leaders opposed to coca eradication are vying for the support of
       the marginalized poor indigenous majority. The embassy should develop, together
       with Department bureaus and USAID, a comprehensive strategy and action plan to
       reach out to this population.

            Consular agents in Santa Cruz and Cochabamba adequately meet needs for
       consular services and perform valuable and cost-effective services for American
       citizens. The Department of Homeland Security’s Directorate of Border and Trans-
       portation Security should assume responsibility for anti-alien smuggling and
       counterterrorism efforts in Santa Cruz and not leave that responsibility for the
       consular agent.




24   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
Inspection of Embassy Georgetown, Guyana
(ISP-I-03-32)

    The embassy does a good job managing its limited portfolio, and relations with
the Guyanese government are as good as they have ever been. The embassy and the
other agencies work well together and within the framework of the Mission Perfor-
mance Plan (MPP). However, the embassy does not have an effective mechanism
for integrating public diplomacy into the mission’s activities and into its MPP perfor-
mance goals and objectives. It needs to put organizational responsibility for public
diplomacy in the political section and develop a concrete public diplomacy plan in
support of the MPP.

    Internally, the embassy sections function well in a difficult environment. The
consular section is restoring its image in the aftermath of a notorious visa fraud
scandal that occurred in 2000. The administrative section is working on a backlog of
chronic support problems. The political/economic section, with only first-tour junior
officers, does a good job.

    Given the accelerating projected pace of Centers for Disease Control (CDC)
programs and presence in Guyana, the embassy and CDC need to establish a work-
ing group to address systematically the administrative demands and costs attendant
to that growth. The embassy also needs to strengthen management controls.




Inspection of Embassy Paramaribo, Suriname
(ISP-I-03-37)

    Embassy Paramaribo does a good job representing U.S. interests in an unpromis-
ing political and economic environment. The embassy works hard on its key MPP
goals: regional stability, economic growth, and law enforcement cooperation. It has
good working relationships throughout the spectrum of government, business, and
social elites.

   The embassy’s public diplomacy activities and its initiative in establishing an
American Chamber of Commerce are to be commended. In striving to meet its
ambitious agenda of MPP and other mission goals, the embassy may be overreaching
and projecting unrealistic future resource requirements.



Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   25
           Overall, the political/economic section, administrative section, and regional
       security office get high marks for their performance. Adequate management controls
       are in place. The embassy must address the implications for the current building of
       the Department’s decision eventually to locate a new chancery on another site. The
       consular section needs to restructure and to realign its staff to reflect better the low
       workload.




       Inspection of Embassy Port of Spain,
       Trinidad and Tobago (ISP-I-03-39)

           Embassy Port of Spain pursues an extensive agenda in furtherance of U.S.
       bilateral and regional objectives. However, over the past year, the embassy has been
       distracted by internal managerial, morale, and communication problems that have
       overshadowed its program efforts. The embassy now needs to put these problems
       behind it and focus on achievement of its MPP goals. In part, this will require
       changes in the embassy leadership’s management approach; in part, the problems are
       a product of recent personnel turmoil and long-standing administrative problems.
       The embassy needs a more structured approach to address the major substantive
       issues and report on its activities. The administrative section is grappling well with
       cleaning up the legacy of past administrative failings. However, the section is over-
       stretched and needs additional Foreign Service national (FSN) positions.

           Both the political and public affairs sections require senior-level attention.
       Because INL programs are too large and too complex to be handled by a single
       person in an already burdened political section, the embassy needs to establish a
       narcotics affairs section headed by an experienced officer. The public affairs section
       tends to view itself as quasi-autonomous, contributing to mission goals and activities
       on its terms, not as a responsive mission element working under the embassy leader-
       ship.

           With the continuing growth of other agencies’ programs and personnel, the
       present embassy facilities are overstretched, posing major space, security, and safety
       concerns. For the long term, the embassy, in coordination with the Bureau of
       Overseas Buildings Operations (OBO), needs to identify a new chancery site. It also
       has to move promptly in considering midterm steps to ease its most pressing space
       problems, particularly in the management and consular sections. Management
       controls are in place, but vulnerabilities exist. The embassy needs funding for new
       positions to institutionalize and maintain a sound management controls program.



26   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
European and Eurasian Affairs


Inspection of Embassy Belgrade and
Consulate Podgorica, Yugoslavia
(ISP-I-03-11)

    Embassy Belgrade has developed good working relations with the Yugoslav
government in the two years since diplomatic relations were restored in November
2000. Proactive embassy engagement resulted in Yugoslav cooperation with the
International Criminal Tribunal in The Hague, including surrender of former
strongman Slobodan Milosevic.

     The embassy is functioning effectively despite disruptive reconstruction to repair
extensive damage sustained while the chancery was vacant and unguarded. As the
pace of construction winds down, administrative practices, particularly in the budget
and fiscal and procurement areas, need to be strengthened, irregularities eliminated,
and internal controls improved. As Belgrade is once again a well-supplied, livable
city, a three-year tour-of-duty policy should replace the current two-year pattern.

   FSN morale is high. Those who were kept on salary during the break in diplo-
matic relations are grateful for U.S. government support. Recently hired FSNs are
competent and will benefit from a more structured training plan. The embassy
needs to resolve issues flowing from the underreporting of FSN income to the
government.

    A new consulate in Podgorica was opened in 2002 in space located in a USAID
building. Embassy Belgrade has provided strong management support but made
important savings in overall costs by agreeing that USAID, under ICASS, will pro-
vide administrative support.




Inspection of Embassy Helsinki, Finland
(ISP-I-03-14)

    Finland supports a strong transatlantic relationship with the United States and is
a valuable partner to help advance political and economic development in the Baltic



Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   27
       region. Nevertheless, Finland’s European Union membership may present both a
       challenge and an opportunity for strengthening the bilateral relationship with the
       United States over the next decade. The embassy is working to bolster the bilateral
       relationship through initiatives with a regional focus and a strong network of people-
       to-people programs.

            The Ambassador has tapped her extensive private sector experience to develop
       new directions for Embassy Helsinki. She was the driving force behind the Helsinki
       Women’s Business Leaders Summit – an initiative that contributed to strengthened
       bilateral relations with Finland and U.S. regional interests. The Ambassador’s focus
       has been to extend public outreach and raise the U.S. profile in Finland and the
       region. This achievement advances the MPP and Northern European Initiative goals.
       It is a testament to her ability to rally foreign governments and groups to her vision.
       In contrast, however, the Ambassador has had some difficulty in achieving as full a
       sense of teamwork and enthusiasm among her embassy staff. The Ambassador and
       DCM recognize that some staff have concerns about lines of control and responsi-
       bility with regard to some front office initiatives. OIG administrative services ques-
       tionnaires revealed low scores on overall embassy morale and front office attention
       to morale. The Ambassador and DCM must take care to ensure that staff is brought
       together as a team.

           Embassy management and operations are hampered by physical workplace
       concerns -- poor allocation of workspace in several buildings -- and questions about
       the future of the Malmi warehouse. OBO has scheduled a major rehabilitation
       project for 2005 that should address physical layout. The Department should address
       the issue of the warehouse in the near term to ensure proper planning and potential
       savings.




       Inspection of Embassy Oslo, Norway
       (ISP-I-03-16)

           Embassy Oslo effectively advances the broad U.S. agenda with Norway. Strong
       substantive engagement in Oslo, coupled with an equally strong Norwegian embassy
       in Washington, has ensured that political and military cooperation remains firm. The
       Ambassador’s engagement with the leadership of Norway is productive and his
       public outreach efforts have been very well received. Weak vertical and lateral
       communication within Embassy Oslo has hindered effectiveness of operations and
       program development. Lines of authority for executive decisionmaking are unclear.



28   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
Mission-wide planning of programs has been inadequate. The DCM has not been
sufficiently engaged with internal mission operations. Morale at the mission is low.

     Political, economic, public diplomacy, and commercial efforts should be better
coordinated. Officers in Embassy Oslo’s combined political/economic section have
fully integrated political, economic, and global issues portfolios. The section also has
provided invaluable coverage of Norway’s involvement in conflict mediation efforts,
but there should be greater attention to strategic, long-range reporting and analysis.
Although the public affairs section manages its core programs well, other mission
elements need to make better use of the range of available public diplomacy pro-
grams.

    Consular operations are improving, and a reconstruction of the section now
beginning will improve morale and effectiveness further. Visa adjudication is judi-
cious. Rationalization of staffing within consular operations and the limited use of
overtime is required to meet demands on the section.




Inspection of U.S. Office Pristina, Kosovo
(ISP-I-03-17)

    Pristina and most of the rest of Kosovo are calm. The mission’s one-year,
unaccompanied, tour-of-duty policy does not conform to this reality and should be
reviewed. Until tours of duty are lengthened, the Regional Support Center in Frank-
furt should provide more regular oversight to U.S. Office Pristina, particularly in the
areas of human resources and financial management.

    The mission transmits a significant volume of spot reporting on political devel-
opments but few analytic pieces. The political/economic section is large and in-
cludes several officers who deal with law enforcement and refugee issues. A separate
economic section would allow more systematic coverage of economic issues of
importance to Kosovo’s future and would provide a more manageable span of
control for section chiefs.

    A hastily assembled compound of 20 cheaply constructed private homes pro-
vides sufficient, but inefficient office space and residential quarters for most staff.
The fact that the U.S. government must return the structures to their owners in their
original condition should be borne in mind before any major new construction,
including a projected $1.8 million for a Marine security guard Post One, is under-
taken.


Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   29
       Inspection of Embassy Skopje, Macedonia
       (ISP-I-03-20)

           Embassy Skopje functioned smoothly during a series of crises, which included
       ethnic violence and an ordered departure. The embassy helped lead a successful
       multinational effort to defuse the violence and provided Washington with a large
       volume of good reports. As stability returns and political and security concerns
       recede, the embassy should reexamine its programs and activities in light of the
       other goals identified in its MPP.

           The absence of a public affairs officer has hindered effective public diplomacy.
       Temporary supervisors – 13 in 15 months – kept routine programs going well but
       could not provide consistent focus on policy goals. Mission coordination is ham-
       pered by the dispersal of offices in a half dozen locations around the city of Skopje.
       Several concerns could be resolved by relocating additional offices to the unclassified
       annex, which opened in summer 2002.

            The embassy is well administered with the exception of property management
       procedures. It possesses a strong cadre of well-educated FSNs, but major responsi-
       bilities are concentrated in the hands of too few senior FSNs with little backup or
       cross-training. The FSN committee is inactive, and the embassy needs to develop a
       plan for regular contact with a representative group of FSNs.




       Inspection of Embassy Stockholm, Sweden
       (ISP-I-03-21)

           Although there are areas of common interest, Sweden’s traditional neutrality
       makes it a “hard target” and can put it at odds with U.S. priorities. Overcoming
       profound Swedish differences with U.S. policy and ensuring that Sweden finds
       common ground with the United States is the foremost challenge for this Ambassa-
       dor and this embassy. The Ambassador has frequent interaction with a broad cross-
       section of Swedish government, industry, and society. He is also working with other
       U.S. embassies in the region to develop approaches that will tap into common
       Scandinavian views and initiatives. The Ambassador engages in public diplomacy




30   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
opportunities, and plans are in place to have other officers do the same throughout
Sweden. Embassy Stockholm’s visa adjudication process now works smoothly, with
clear procedures for adjudication and review.




Inspection of Embassy Tirana, Albania
(ISP-I-03-22)

    Embassy Tirana continues to grow rapidly, and the Department assigns and
embassy management seeks new American positions, both direct hires and contract
advisors, without regard to administrative support requirements or available space.
Mission policies concerning contract advisors are neither transparent nor uniform.

   The transition from unaccompanied, one-year tours of duty to accompanied,
two-year assignments would have been smoother had the embassy had a functional
medical unit, community liaison office coordinator, better orientation programs, and
more information about local facilities, notably schools.




Inspection of Embassy Lisbon, Portugal
(ISP-I-03-35)

    Embassy Lisbon has worked diligently to cement a close bilateral relationship
and strengthen cooperation. It has given the highest priority to maintaining Portu-
guese support for key U.S. policy objectives and to ensuring access to Portuguese
military facilities that have assumed special importance in the present global context.
At the same time, it has been successful in gaining Washington’s attention to issues
of concern to the Portuguese government.

    The priority given to the political and security agendas is understandable given
the war on terrorism and the effort to deal with the threat posed by Iraq. The
embassy is developing a strategic plan to expand economic and commercial relations.
However, more can be done to take advantage of short-term opportunities for
economic dialogue and commercial advocacy. A more effective integration and
coordination of the work of the Foreign Commercial Service and the Foreign
Agricultural Service would facilitate this task.




Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   31
           In contrast to its good performance on most policy matters, the mission is
       suffering from an unusually wide range of administrative and personnel management
       problems. In many cases, these problems are the result of an unfortunate history of
       management neglect, going back many years. However, they have been com-
       pounded by the performance, attitudes, and behaviors of some recent and current
       staff members occupying key management positions.

            The persistence of these problems has adversely affected mission morale, espe-
       cially but not exclusively among FSN staff. The mission’s executive leadership was
       more aware of and actively concerned about these issues than most employees
       realized or appreciated. Nevertheless, OIG judged that the seriousness of the
       situation required more aggressive and purposeful action. To their credit, the Am-
       bassador and the DCM strongly welcomed key OIG recommendations and are
       proposing urgent remedial action, seeing an opportunity to correct long-standing
       problems and to improve mission performance and morale.




       Inspection of Embassy Madrid and Consulate
       General Barcelona, Spain (ISP-I-03-36)

           Embassy Madrid’s goals are well defined and sharply focused on the deepening
       of already good bilateral cooperation on issues such as terrorism, defense, and
       economic and commercial issues. Two other goals that have assumed even greater
       importance in the current international context are ensuring the welfare and protec-
       tion of 90,000 American citizens living in Spain and an estimated one million Ameri-
                                                                     can visitors, and im-
                                                                     proving the functional-
                                                                     ity and security of
                                                                     official U.S. facilities.

                                                                               Despite significant
                                                                           downsizing in recent
                                                                           years, the consulate
                                                                           general in Barcelona
                                                                           maintains a high level
                                                                           of consular services to
                                                                           resident and visiting
                                                                           American citizens and
                      Consulate General Barcelona, Spain                   active programs in



32   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
support of U.S. policy, commercial, and public diplomacy interests. The consulate
general has been adversely affected by extended staffing gaps, the lack of a full-time
management officer position, and inadequate attention from Embassy Madrid to its
personnel and administrative needs.

    At the time of the inspection, the embassy was awaiting a response from the
Bureau of European and Eurasian Affairs to its urgent request for assistance in
meeting a significant shortfall in funding for administrative support operations. The
shortfall, attributed to errors made in the previous fiscal year that were not caught or
corrected at subsequent review stages, threatened severe adverse consequences for
both locally hired staff and embassy operations. It was also preventing the embassy
from implementing plans to enhance staffing and performance in key areas of
administrative support.




Inspection of Embassy Copenhagen,
Denmark (ISP-I-03-46)

    Embassy Copenhagen is doing a good job advancing U.S. foreign policy interests
in Denmark. The embassy has well-managed administrative operations.

    Bilateral and regional counterterrorism and law enforcement programs are well
coordinated. The consular section is well managed, but consular space needs
reconfiguring to handle the new mandated visa interview requirements. Better
cooperation between the service provider and the ICASS council is needed to
accomplish important joint administrative goals. In calculating Embassy
Copenhagen’s cost of living allowance, the Department should factor in the 25
percent local Value Added Tax (VAT) refunded to employees.




Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   33
                            Cost of Living Allowance (ISP-I-03-51)

           In several recent inspections, OIG has identified a compensation issue with
           potentially large consequences worldwide. The Department has a policy of
           computing the post allowance, known as the cost of living allowance
           (COLA), for U.S. direct-hire employees without making an adjustment by
           deducting VAT reimbursement. Making the adjustment would result in
           savings to the Department.

           Worldwide, the VAT for general merchandise and services varies but may
           reach 25 percent, which is a significant part of the local consumer prices
           reported to the Department. In those countries where all U.S. government
           employees receive VAT reimbursement, the COLA indices may be over-
           stated. At OIG’s request, the Department calculated the COLA index
           without including the VAT for the U.S. embassies in Helsinki and
           Copenhagen. The calculations showed a five percent overstatement once
           VAT refunds were factored in. Given average salaries and family-size, the
           five percent index overstatement could amount to over $90,000 at each
           mission.

           Although the retail price surveys provide the raw data for the Office of
           Allowances in the Bureau of Administration to calculate COLA at every
           overseas mission, OIG noted that the survey forms do not specifically ask
           whether mission employees receive VAT reimbursement, in full or in part.
           In addition to Helsinki and Copenhagen, OIG found similar VAT issues
           during its inspections of U.S. embassies in Oslo, Stockholm, and most
           recently, Mexico City. OIG recommended that the Department require all
           missions to submit retail price surveys that list local prices net of Value
           Added Tax reimbursement.




       Inspection of Embassy Reykjavik, Iceland
       (ISP-I-03-49)

            Embassy Reykjavik is a well-managed Special Embassy Program post. The
       Ambassador and DCM are successfully mobilizing the small staff to promote U.S.
       interests in Iceland. The consular function at the embassy is being restructured and
       will require additional support from CA to enhance internal controls and to imple-




34   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
ment recent changes in consular interviewing procedures. Administrative operations
are adequately managed. However, OIG recommended improvements in the man-
agement of human resources and general services. The embassy needs the assistance
of OBO to reconfigure chancery space for more effective use.



African Affairs


Compliance Follow-up Review of the
Inspection of Embassy Abuja and Consulate
General Lagos, Nigeria (ISP-C-03-28)

    Embassy Abuja and Consulate General Lagos have turned in a mixed perfor-
mance in addressing most of the problems contained in OIG’s 2002 inspection of
the post. For example, compliance in the consular area (almost entirely involving the
consular section at Consulate General Lagos) was very good. Only one consular
recommendation requiring the mission’s action now remains open. Compliance in
the administrative area was sufficient to permit OIG to close four recommendations
outright and reissue or modify six others. However, the recommendations requiring
action by mission management will require more work.

                                                              OIG made a net total of 14
                                                          compliance follow-up review
                                                          recommendations. OIG made
                                                          recommendations to improve
                                                          supervision and communication
                                                          between mission management
                                                          and staff. Other recommenda-
                                                          tions covered developing a
                                                          systematic approach to the
                                                          ongoing transition of the em-
                                                          bassy from Lagos to Abuja and
               Embassy Abuja, Nigeria                     rationalizing space use and
                                                          staffing levels.




Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   35
       Inspection of Embassy Antananarivo,
       Madagascar (ISP-I-03-29)

           OIG identified serious physical deficiencies with the chancery, but noted that
       significant improvements to the current facility would be futile. OIG urged the
       Bureau of African Affairs to reexamine the priority assigned to this project.

           During a year of preelection violence and instability between January and De-
       cember 2002, Embassy Antananarivo’s reporting drew praise from Washington
       analysts and observers.

           The embassy’s MPP is a high-quality document for articulating mission policy
       goals and priorities. All mission elements contributed to the development of the
       MPP, which clearly defines program activities, but fails to identify support resources
       needed to implement fully program increases. This oversight results in an administra-
       tive section that is unable to satisfy requirements without excessive overtime. Future
       MPPs should include support requirements as an integral part of the planning
       process.




       Compliance Follow-up Review of the
       Inspection of Embassy Luanda, Angola
       (ISP-I-03-44)

           This review focused on morale and working conditions at Embassy Luanda.
       OIG found that morale had improved significantly since its last inspection due to the
       personal efforts of the new Ambassador and management team. Working condi-
       tions at the embassy’s Casa Inglesa annex have been improved by upgrading existing
       space and creating new office space from a former storage area.

           OIG also found that Embassy Luanda’s new administrative leadership has made
       progress in overcoming administrative problems. The ICASS council now has a
       chairperson but still needs to develop and implement standards. The new manage-
       ment officer and general services officer have improved the procurement process
       since the inspection but need to implement an automated system if improvements
       are to continue.




36   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
East Asian and Pacific Affairs


Inspection of Embassy Apia, Samoa
(ISP-I-03-30)

    The primary goals of Embassy Apia are to maintain good relations with the
small, island-based state of Samoa and to deliver consular services to its inhabitants
and visitors. The embassy does both satisfactorily. The embassy’s record shows
commendable initiative in applying limited program resources to highlight mutual
political, economic, commercial, and security interests. Periodic visits, seminars, and
other events are symbolic and important but have diverted the embassy from its
heavy resource management workload.

    With general guidance from the Ambassador in Wellington, the chargé d’affaires
in Apia executes policy and consular functions well but struggles against severe
infrastructure problems. Embassy Wellington and Consulate General Auckland have
provided increasingly effective support. Embassy Apia should expand and rational-
ize collaboration with Wellington on both program and administrative affairs.

   Facing severe limitations in facilities and telecommunications infrastructure,
Embassy Apia should establish clear priorities, define standard operating procedures,
and sharply define workable management controls, in coordination with Embassy
Wellington and the Bangkok Financial Services Center.




Inspection of Embassy Canberra, Australia,
and Constituent Posts (ISP-I-03-31)

    A paramount policy priority for Embassy Canberra and Washington is to main-
tain the U.S.-Australian alliance, a relationship that has led to highly productive
defense, intelligence, and scientific cooperation. High-level exchanges between the
two executive branches attest to the mutually felt importance of the relationship.
The negotiation of the key economic issue in bilateral relations – a Free Trade
Agreement – is the focus of Washington officials’ interest in reporting.




Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   37
           The diplomatic mission’s staff is appropriately matched to its goals and relatively
       stable. The mission should attempt to counter the pressure for increased American
       staff by relying more on locally hired staff.

           The Office of Public
       Affairs has not been inte-
       grated satisfactorily into the
       Department’s structure in
       Canberra. Daily operations
       have remained much as
       before, and it is time to
       push through the measures
       required for effective
       integration. The full range
       of consular services is
       provided from the consular
       base in Sydney, with limited
                                                  Consulate General Perth, Australia
       consular services at the
       embassy and other consu-
       lates general. New security requirements after September 11, 2001, have added an
       additional layer of work. There is concern about how future changes may affect
       staffing and space requirements.

           OIG commends the effort and attention to detail evident in Embassy Canberra’s
       annual statement of assurance regarding internal management controls, required by
       the Federal Manager’s Financial Integrity Act. However, Embassy Canberra can
       improve its mission-wide oversight of management controls by increasing coordina-
       tion with the consulates general.




       Inspection of Embassy Phnom Penh,
       Cambodia (ISP-I-03-38)

            Executive direction at Embassy Phnom Penh is effective. Management received
       high marks for communication, engagement, and feedback. The embassy compound
       is the single largest stumbling block to safe and effective operations. A new embassy
       compound is under construction.




38   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
    Office space for USAID is also a problem because the new embassy is not sized
to accommodate USAID staff, and funding for a USAID building has not been
provided. A temporary location for USAID needs to be identified and approved.




Inspection of Embassy Rangoon, Burma
(ISP-I-03-40)

    The chargé d’affaires and DCM have worked to improve Embassy Rangoon, but
some areas need increased attention. The chargé d’affaires should work more dili-
gently to expand her interactions and engagement with a greater range of key figures
in the country. Although economic reporting earned praise for its timeliness and
insights, Washington readers have questioned the adequacy of reporting on human
rights concerns. Internally, the executive office should establish regular senior staff
meetings to focus mission priorities and task officers with initiatives.

    Although Burma is the second largest producer of opium in the world and a
major developer of methamphetamines, direct counternarcotics assistance from the
U.S. government to Burma was suspended in 1988. Narcotics trafficking is an
inherently cross-border issue and requires regional coordination to confront it
effectively. The Bureau of International Narcotics and Law Enforcement Affairs
could explore establishing a regional narcotics affairs office.

    Public diplomacy is one of the few activities that allow the embassy to expand
U.S. engagement with Burma. The section is making significant strides in its out-
reach efforts and conducts successful information and English teaching programs in
Rangoon. The embassy is exploring options to establish outreach in Mandalay and
elsewhere.

    Real property issues continue to plague Embassy Rangoon. The property in
Mandalay is underutilized, and OBO and the embassy need to reevaluate the Wash-
ington Park site for a new embassy compound in Rangoon.




Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   39
       Inspection of Embassy Vientiane, Laos
       (ISP-I-03-42)

            At this Special Embassy Program post, the Ambassador and DCM are providing
       the required direction to ensure mission priorities are advanced. The Ambassador has
       properly raised the standards and expectations for embassy operations. Given the
       difficult operating environment in Vientiane, embassy management must be careful
       not to place too great a burden on the small staff.

           Embassy Vientiane fully supports the U.S. government’s Joint Task Force efforts
       to recover the remains of missing Americans from the Vietnam conflict. The Joint
       Task Force has made significant progress in reaching a full accounting for those
       missing in action.

           Embassy coordination with the Drug Enforcement Administration’s (DEA)
       office in Udorn, Thailand, supervised through Embassy Bangkok’s DEA office,
       provides additional information on narcotics trafficking from Laos, across the
       Mekong River, into Thailand. Exchanges should be regularized.

           The Laotian government is now willing to provide a no-cost exchange for the
       U.S. government-owned property, known as Silver City, that the Laotian government
       has occupied since 1975 and will not vacate. Embassy Vientiane should immediately
       explore and finalize this exchange.




       Inspection of Embassy Wellington, New
       Zealand (ISP-I-03-43)

           The U.S. mission in New Zealand generally enjoys strong leadership, a solid
       relationship with the country’s leadership, and the best morale it has seen in years.
       However, management should be more attentive to employee concerns, notably
       those of both Department and non-Department FSNs.

           During the inspection, Embassy Wellington completed this year’s MPP and
       included a request for another four American positions. OIG found the American
       staffing level, with the position increases already planned, to be sufficient and en-
       couraged Embassy Wellington to use locally employed staff to meet its needs for



40   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
improved front office support and additional expertise in the political/economic,
public affairs, and management sections.

    Embassy Wellington’s administrative operations are highly centralized and effec-
tive and efficient. With the full support of the DCM and with talented locally
employed staff, the management officer and his team have in recent years signifi-
cantly improved the embassy’s facilities, streamlined routine functions, installed
superb telecommunications and inspired local staff to excellence. The embassy’s
policies correctly encourage the prudent management of resources, and its proce-
dures are logical and practical.



Domestic Bureaus and Missions


Inspection of the Office of Foreign Missions
(ISP-I-03-13)

    The Office of Foreign Missions (OFM) performs many of its functions with
distinction, but it cannot be described as a well-run operation. Organizational
anomalies are a root cause of its problems.

     The Assistant Secretary for the Bureau of Diplomatic Security (DS) is dual-
hatted as the Director of OFM. The focus of OFM is primarily domestic. As a
result, oversight and accountability suffer in OFM, and the impression is conveyed to
foreign diplomats that their presence in the United States requires scrutiny of the
Department’s “security” bureau. Moreover, two of OFM’s critical issues are priorities
of the Office of the Under Secretary for Management (M): reducing overseas
taxation of U.S. government entities and securing privileges for technical and admin-
istrative staff at U.S. missions abroad. The Department should move OFM from the
Bureau of Diplomatic Security and place it within the M family of organizations.
The deputy director who actually runs OFM should be empowered to do so.

    OFM needs to reorganize two of its areas of responsibility. Foreign officials in
Washington and other cities are dissatisfied with the cumbersome accreditation and
documentation processes. Reorganization and stronger management are required,
starting with consolidation of the Office of Protocol adjudication process and OFM
documentation process. OFM also needs to reorganize its Diplomatic Motor Ve-



Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   41
       hicles Division to ensure timely data entry and production. Related to this, OFM’s
       computer program requires major improvements.




       Inspection of the Office of the Chief of
       Protocol (ISP-I-03-18)

           A small office with direct responsibility to both the President and the Secretary,
       the Office of the Chief of Protocol (Protocol) enjoys a widespread and well-de-
       served reputation for excellence. During the time that the present senior manage-
       ment has been in office, it has handled two and a half times the number of high-
       level visitors handled by their predecessors, while at the same time maintaining the
       same level of staffing, instituting tighter management, and improving internal proce-
       dures. Management has been strong, but office morale needs attention.

           The Visits Division’s assistant chief and his staff excel in planning and arranging
       programs for foreign dignitaries that the President invites to the United States. The
       assistant chief is highly regarded, but demands for his services often cause him to be
       away from the office. When he is absent, it is not clear who is in charge. The Visits
       Division should be reorganized to establish a hierarchy with clear lines of authority.

           The rigorous measures installed at the nation’s airports following the September
       11, 2001, terrorist attacks have caused several unfortunate incidents involving high-
       ranking foreign officials entering or leaving the United States. The Assistant Secre-
       tary for every regional bureau recounted incidents when a foreign dignitary suffered
       embarrassment at security checkpoints. Some foreign governments have indicated
       that they intend to respond in kind to treatment they consider unwarranted, and at
       least one has done so. The Office of Homeland Security reporting to the Deputy
       Secretary is expected to become the Department’s interface with transportation
       security authorities to deal with this vexing and embarrassing issue.

           Liaison services to foreign government officials in the United States are rendered
       with dedication and sensitivity to the national interest. Still, Protocol needs to mod-
       ernize the accreditation and adjudication process for foreign officials by adopting
       electronic registration procedures.




42   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
Inspection of the Bureau of International
Organization Affairs (ISP-I-03-33)

     In a particularly challenging period, the Bureau of International Organization
Affairs (IO) is doing an effective job managing U.S. policy in the United Nations and
in a wide range of international bodies. IO and the U.S. Mission to the United
Nations (USUN) have an extremely close relationship. IO has most recently shown
its ability to backstop USUN effectively in its handling of the Iraqi crisis. In this
effort, IO worked daily with the Secretary, White House, and National Security
Council to coordinate U.S. diplomatic efforts. In addition, IO deals with virtually
every part of the Department and with many other government entities. Relations
are in general productive, although continuing attention must be given to dealing
with some functional bureaus where interests and portfolios at times overlap and
compete.

    The new Assistant Secretary and his deputies practice an effective but informal
leadership style. Bureau leadership follows an open-door policy, and free discussion
of ongoing topics is welcomed. Although working hours are long in several offices,
morale is generally good.

    IO has seen virtually no growth in the number of permanent positions over the
past ten years. Some permanent positions have been vacant for prolonged periods
and the lengthy recruitment process to fill vacant Civil Service positions has led to
misunderstandings and frustration. IO has filled most Foreign Service position
vacancies during this year’s recruitment cycle, but the number of candidates from
which to choose for mid-level positions is limited. All levels of IO management
currently participate in recruitment, but there is need for a more aggressive outreach
program to attract and retain talented, motivated officers.




Inspection of the Office of the Legal Adviser
(ISP-I-03-34)

    The Office of the Legal Adviser (L) provides outstanding legal services to the
Secretary of State and other clients. It often plays a key role in the Department
senior leadership decisionmaking. The Legal Adviser is exceptionally effective as a
lawyer and a leader. The office is correctly focused on current Administration



Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   43
       priorities, most importantly the war on terrorism. Morale is generally good despite a
       growing workload following the terrorist attacks of September 11, 2001, and some
       understaffing.

            L needs to create a more robust management structure and develop long-term
       strategies to obtain resources to correct deficiencies that negatively affect its work
       environment. Its critical needs in improving office space, records management, and
       information technology support are strongly interrelated and bear testimony to a
       long-standing lack of attention to management. L’s management needs to engage in
       more active advocacy for resources, and the Department should be responsive to L’s
       critical needs.

            L’s administrative staff is too small and insufficiently experienced or trained to
       support a staff of almost 300. L’s Bureau Performance Plan needs to devote more
       resources to administrative support. L needs to intensify its efforts to recruit minori-
       ties. Since the last inspection in 1991, L has made major progress in reducing security
       violations.


            DS Shows Improvement in Response Time for Investigations of
                            Suspect Passport Cases
           OIG, in its Review of Domestic Passport Operations Phase II: Fraud Pre-
           vention Programs, (ISP-CA-03-25, December 2002), recommended that
           the Bureau of Diplomatic Security seek to improve the response time of DS
           field offices in the investigation of passport cases suspected of fraud.
           Follow-up information collected by OIG from 16 U.S. passport agencies
           subsequent to the review indicates that DS field offices have substantially
           improved their response time in fraud investigations and have improved
           information sharing through regularly scheduled meetings. In fact, several
           passport agencies reported that there are now DS agents available to
           interview walk-in passport applicants should the need arise.




44   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
Inspection of the Bureau of Democracy,
Human Rights and Labor (ISP-I-03-49)

    Under the purposeful direction of the Assistant Secretary of the Bureau of
Democracy, Human Rights and Labor (DRL), and with the support of Department
senior leadership, the bureau is doing a good job integrating the promotion of
human rights and democracy into U.S. foreign policy.

    The bureau’s leadership has been successful in securing increased funding for its
human rights and democracy promotion efforts and in giving these efforts greater
strategic focus and impact. Grants and programs are generally well managed, but the
bureau is aware that the recent rapid growth of programs has created a need for a
more systematic monitoring and evaluation process.

    Despite some apprehensions, DRL’s expanded involvement in programming and
grantmaking does not appear to have affected its commitment to the bureau’s tradi-
tional human rights advocacy role. In a number of instances, the bureau’s ability to
offer advice and resources for addressing human rights issues has enhanced its
influence with regional bureaus and other key players.

    Although DRL is generally doing a good job in managing its relationships with
important constituencies, correspondents, and partners, its relationship with IO
needs improvement. Disagreements over how best to advance U.S. human rights
interests in the multilateral context, as well as disputes over respective roles and
responsibilities in this area, have hampered the Department’s ability to develop a
coherent approach and strategy. The problems in the policy development process
are not without consequences for U.S. foreign policy interests.

    The current structure that places the congressionally mandated office of the
Ambassador-at-Large for International Religious Freedom within DRL is at odds
with the Department’s organizational guidelines and has proved to be unworkable.
As a consequence, the purposes for which the religious freedom function was
created are not being adequately served.

    DRL’s executive office also supports the Bureau of Oceans and International
Environmental Scientific Affairs. The substantial growth of both bureaus has placed
severe strains on the office, justifying the establishment of separate executive offices.




Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   45
                              Post Assignment Travel (ISP-I-03-53)
           In 2002, OIG investigated a multimillion-dollar fraud case in which a local-
           hire financial management employee at an overseas mission created and
           processed false transportation invoices and vouchers payable to his bogus
           company. As a follow-up to that investigation, OIG inspection teams
           verified whether inspected missions were monitoring charges made
           against Washington-held allotments for transportation of personnel and
           effects – post assignment travel (PAT) expenses. Further, the Department
           requested that OIG help them in assessing the process and controls for
           PAT during post management inspections.

           Over the last inspection cycle, OIG found that without the appropriate
           internal controls in place, the risk still exists for employees serving at
           overseas missions to perpetrate this type of fraud against the Department’s
           $160 million PAT allotment held in the Executive Office in the Bureau of
           Human Resources.

           In recent inspections, OIG has recommended that missions establish
           locally maintained records for the centrally funded PAT invoices that they
           process. In a separate memorandum, the OIG recommended that the
           Department advise overseas missions in writing on methods to ensure that
           all PAT invoices are valid, approved by their shipping section, and paid only
           once. OIG also recommended that the Department evaluate whether
           decentralizing PAT allotments, in whole or in part, would enhance internal
           controls.




       Inspection of U.S. Mission to the United
       Nations (ISP-I-03-41)

            U.S. interests in the multilateral arena are well served by the USUN. This is a
       stressful time for U.S. diplomacy. Nowhere is that more evident than at the United
       Nations where demands are high and the mission’s working infrastructure is remark-
       ably poor. Most personnel at the mission see their jobs as fulfilling and exciting. The
       challenge for mission leadership is to ensure that the pace, morale issues, and a
       difficult work environment do not erode this enthusiasm. Communication and
       coordination within the current mission is difficult and will need to be improved
       before the mission is relocated to temporary offices next year.


46   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
    The mix of USUN staffing and resources is appropriate, in light of essential U.S.
goals and objectives as described in the MPP, although the Economic and Social
Affairs Council section does not appear to have sufficient personnel resources to
cover all of its issues in depth. The Department must assess the impact of the longer
tour of duty on the pool of available Foreign Service candidates in this expensive,
high stress mission.

    Mission employees ranked overall administrative performance relatively high in
the administrative services satisfaction questionnaire. General services is a unit that
needs improvement. Excepted service employment status, affecting the majority of
mission employees, continually raises concerns. All would profit from information
and a better understanding of the federal employment system.



Consular Affairs


Inspection of the Directorate of Visa
Services, Bureau of Consular Affairs
(ISP-CA-03-46)

    Senior managers and staff in the Bureau of Consular Affairs, Directorate of Visa
Services (CA/VO), have shown strong leadership in addressing key issues arising
after the terrorist attacks of September 11, 2001. They have taken a proactive
approach to concerns about the security of the visa issuance process expressed in
reports prepared by OIG and the General Accounting Office (GAO).

    CA/VO does not have sufficient resources to carry out its current mission
effectively. It responded with maximum flexibility to the greatly increased workload
after September 11, 2001, but the resulting ad hoc contractual arrangements for
temporary positions need to be reviewed and, where appropriate, replaced by regular
staff. The Office of Field Support Liaison, Post Liaison Division, needs additional
personnel to maximize oversight of worldwide consular visa operations.




Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   47
            An OIG worldwide survey found that many consular managers overseas are
       satisfied with the support and oversight they receive from CA/VO. They are frus-
       trated, however, over lengthy delays in the security advisory opinions process. More
       timely updates of the Foreign Affairs Manual replacing the myriad of highly detailed
       instructional cables would provide easier access to current operational guidance.

            OIG found significant vulnerabilities in management controls of cash collections
       for visa services at the National Visa Center at Portsmouth, New Hampshire, and in
       the Office of Public and Diplomatic Liaison. CA/VO management has already
       initiated action to correct these specific lapses in controls.




       Diversity Visa Program (ISP-CA-03-52)

           As part of OIG’s overall review of the Department’s visa process following the
       terrorist attacks of September 11, 2001, OIG reviewed the Diversity Visa (DV)
       program. Section 306 of the Enhanced Border Security and Visa Reform Act of
       2002 (P.L. 107-173) generally limits issuance of nonimmigrant visas to aliens from
       state sponsors of terrorism. There are no parallel restrictions for the DV program.

            To strengthen the DV application process in general and to eliminate specifically
       its possible use by terrorists as a means of gaining permanent residence in the United
       States, OIG recommended that the Department do the following:
       ·   Propose legislative changes that would bar from the DV program all aliens
           from states that sponsor terrorism;
       ·   Propose legislative changes that would permanently bar all adults identified as
           fraudulent applicants from future DV programs;
       ·   Request legal authority to make the DV program self financing; and
       ·   Establish standards to improve the application of DV eligibility criteria.




48   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
                                        AUDITS


       Interagency Review of Federal Export Enforcement Efforts
                             (April 2003)

    As required under specific provisions of the National Defense Authorization
    Act, the Inspectors General of the Departments of Commerce, Defense,
    State, and Treasury, in cooperation with the Inspector Generals of the
    Central Intelligence Agency and the U.S. Postal Service, conducted an
    interagency review. To comply with the fourth-year requirement of the act,
    the Offices of Inspector General focused on the federal government export
    enforcement activities to prevent the illegal transfer of militarily sensitive
    technologies to countries and entities of concern. The overall objectives of
    this review were to examine efforts to (1) prevent the illegal export of dual-
    use and munitions items, and (2) investigate and assist in the prosecution
    or administrative sanctioning of violators of the Export Administration
    Regulations and the International Traffic in Arms Regulations. The Inspec-
    tors General found several weaknesses related to verification of export
    license conditions, end-use monitoring of exports, and the enforcement of
    export controls over dual-use and munitions items.




Contracts and Grants


Follow-up Review of the Institute of
International Education (AUD/CG-03-41)

     The Office of Audits, conducted a follow-up review of actions taken on OIG
recommendations in its Independent Accountant’s Report of Indirect Cost Rates Proposed by
the Institute of International Education (USIA-99-CG-015, May 1999) and Independent
Accountant’s Report of Review of Sale and Leaseback Arrangement Proposed by the Institute of



Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   49
       International Education (USIA-99-CG-016, May 1999). OIG performed this work at
       the request of the Department’s Office of Acquisitions Management in the Bureau
       of Administration, Office of Logistics Management.

           Specifically, OIG reviewed reimbursements for depreciation expenses related to
       the sale, lease, and repurchase of an office building by the Institute of International
       Education (IIE) and also examined IIE’s indirect cost structure and methodology for
       claiming reimbursement of indirect cost expenses for fiscal years (FYs) 1999 through
       2001. In this review, OIG found the following:
       •   The Department had negotiated provisional rates for 1999 as recommended in
           report USIA-99-CG-015. Therefore, OIG considers this recommendation
           closed.
       •   During the prior reporting period, the Department negotiated and IIE agreed
           to repay over $1.1 million to resolve OIG’s open issues in report USIA-99-CG-
           016. On August 6, 2003, IIE repaid the $1.1 million; therefore, all open issues
           in the prior report are considered closed.
       •   IIE’s indirect cost rate structure complied with regulations. However, OIG
           questioned $1.2 million in claimed costs, which resulted in lowered rates. OIG
           recommended that the Department finalize the indirect cost rates for 1999-
           2001.



       Procurement, Property, and Administrative
       Support


       Review of Allegations Regarding the Office
       of Humanitarian Demining Programs’
       Contract for Integrated Mine Action Services
       (AUD/PPA-03-24)

          At the request of the Assistant Secretary for the Bureau of Political-Military
       Affairs (PM), OIG reviewed allegations pertaining to the Office of Humanitarian
       Demining Programs (PM/HDP). The allegations were made in an independent
       contractor’s report titled, Review of the Integrated Mine Action Support (IMAS) Contract.
       The report alleged internal control weaknesses, citing approximately 30 deficiencies,



50   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
including inadequate support for IMAS contractor billings and inadequate monitor-
ing of the contractor’s performance by PM/HDP.

    The report identified contract issues and recommended strengthening contractor
performance and PM/HDP contract management. OIG found only four of the 30
alleged deficiencies identified in the independent contractor’s report to be valid, and
that the methodology used in the contractor’s report and purported evidence given
were weak or nonexistent. Overall, the report conclusions were inaccurate and
misleading in stating that these 30 issues “identified the failures of the IMAS Con-
tract Prime Contractor to adhere to the contractual obligations contained within the
IMAS Contract” or “exposed weaknesses regarding the manner in which HDP
administers the IMAS Contract.”

    OIG found that the validated contract weaknesses appear to be exceptions rather
than systemic problems. OIG also believes that the independent contractor’s work
was so deficient that its poor performance should be made a matter of record, and
the responsible contracting officer should consider contractor suspension or debar-
ment proceedings against the independent contractor.

    OIG’s review found that the IMAS contractor was complying with most contract
terms and conditions. OIG concluded that the IMAS contractor had an adequate
basis to estimate prices and, upon the request of the PM/HDP project manager,
provided sufficient documentation and support during the technical review assess-
ment process. Moreover, there were adequate checks and balances to support the
cost-reimbursable and fixed-price elements of the IMAS contract.

    OIG’s work identified two contract issues concerning administrative cost factors
and hazardous duty pay that required further review by the contracting officer. OIG
brought these issues to the attention of the contracting officer because of the
material impact that the questioned costs could have on the contract. OIG identified
more than $1.6 million in possible overcharges of indirect costs applied to overseas
labor. The contracting officer has initiated discussions with the IMAS contractor
and PM/HDP personnel to clarify or correct these contract issues.

    OIG recommended that the contracting officer also clarify other contract provi-
sions and associated costs. One such item involves additional payments of $50 per
day for IMAS expatriate employees in locations with demining activities. The con-
tract does not address this issue but allows hazardous duty pay in locations desig-
nated by the Department. OIG estimates that the costs claimed since the inception
of the IMAS contract are well over $1 million. The contracting officer has agreed to
decide on the eligibility of these costs.




Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   51
           During site visits overseas, OIG found that embassy-designated demining offic-
       ers were not carrying out the full administrative responsibilities described in the
       Humanitarian Demining Programs Policy and Procedures Manual. Officers were not always
       aware of the administrative responsibilities and functions assigned to their position,
       or in some cases, left the execution of these responsibilities and functions to the
       IMAS contractor. As a result, internal controls and reporting mechanisms estab-
       lished by PM/HDP were not being properly carried out. OIG also found that PM/
       HDP managers need to make more frequent visits to the embassies to provide
       program guidance and management oversight, including a review and assessment of
       administrative and financial procedures.




       Review of Legal Services Contract
       Memorandum Report (AUD/PPA-03-35)

           In response to a congressional request dated February 12, 2003, OIG reviewed
       the procurement process and contract administration related to a contract for com-
       mercial services with the law firm of Williams & Connolly LLP. This contract, with
       a total award amount of $1.46 million, was signed on April 2, 2002, and completed
       on December 12, 2002. Its purpose was to provide legal services and support to the
       Department in pending litigation before the Merit Systems Protection Board.

            This litigation involved a former employee, who alleged that high-level officials
       at the Department had taken retaliatory action in response to protected disclosures
       made by the employee to Congress and the media regarding waste, fraud, and abuse.

           The primary objective of OIG’s review was to address a Senator’s request for
       information about the Department’s actions in contracting for legal services to assist
       in this case. The Senator expressed concern as to whether:
       •   the Department had first sought representation from the Department of
           Justice before contracting with an outside law firm;
       •   the Department had complied with applicable contracting requirements in
           making the award and to describe the process used; and
       •   billings by the law firm were properly supported and in accordance with
           contract terms.

       Finally, the Senator asked OIG to provide a listing of expenses and costs incurred
       under the contract.



52   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
    The OIG review found that the Department had first asked the Department of
Justice to provide legal services before contracting with an outside law firm. When
the Department of Justice declined, the Department followed appropriate federal
procurement regulations in the solicitation and award phases for acquiring legal
services. Overall, OIG found that the costs claimed by the contractor, $674,000 out
of a total $676,000 billed, were supported and in accordance with the contract terms
and provisions. OIG is recommending that minor contract billing errors be cor-
rected which may result in a final contract cost of $687,000. OIG noted some areas
for strengthening contract competition and administration and reported these issues
to appropriate officials in the Bureau of Administration and the Office of the Legal
Adviser.




Review of Allegations Regarding Office of
Foreign Missions Information System
Procurements (AUD/PPA-03-39)

    OIG evaluated an allegation that dealt with procurement irregularities in OFM.
The allegation concerned a number of issues regarding a contract awarded in De-
cember 1997 to identify and establish user requirements for a new OFM manage-
ment information system. Also questioned was the monitoring of a second contract
to use those requirements to develop and implement new software.

    OIG found that there was no evidence of a financial conflict of interest as
defined in the Code of Federal Regulations. The allegation claimed inadequate
contract competition and indicated a potential conflict of interest because an OFM
staff member was a “personal friend” of the awardee. In addition, the OFM em-
ployee and another OFM official were allegedly to be hired by the contractor at a
later date. OIG confirmed that an OFM staff member, who approached the presi-
dent of the company that was later selected for the contract award, was a prior
tenant of the president and maintained a casual social relationship. The staff mem-
ber participated in the technical evaluation of the contract submitted and later served
as one of the contracting officer’s representatives. OFM officials did not know of
this relationship. OIG did not find any substance to the allegations that an OFM
employee was hired by the contractor, promised future employment, or received any
form of compensation for official government actions.

    The first contract pre-award and award processes were adequately documented,
followed required federal and Department policies and procedures, and resulted in a



Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   53
       final product accepted by OFM. However, the second contractor indicated that the
       product delivered by the first contractor was of poor quality and had limited value
       for the next phase of software development. The second contractor discarded the
       product and started over, at an estimated cost of $148,000 to redo this work. OIG
       found that the official files for both contracts had inadequate documentation of the
       monitoring for contractor performance. In addition, the first contract for about
       $450,000 had doubled to about $900,000 with little explanation.

            OIG also found that OFM management did not have adequate assurance that its
       management information system contained accurate information. OFM has had to
       fix 803 errors over a period of 18 months ending December 2002. Also, OFM has
       reported that its system does not have an automated information security program.
       As a result, OFM cannot be assured of the safety of sensitive information in its
       system. OIG recommended corrective action that should strengthen OFM contract
       management and improve the accuracy and security of its information systems.




                        Department Competitive Sourcing Program
                                  Continues to Improve

           During this reporting period, OIG continued to monitor the progress the
           Department was making in complying with the Federal Activities Inventory
           Reform Act of 1998 (FAIR Act), which directs federal agencies to issue an
           inventory each year of all commercial activities performed by federal
           employees that are not inherently governmental. OIG found that the 2001
           inventory of positions available for competition was developed in an incon-
           sistent manner and consequently, was inaccurate. OIG’s review found that
           the Department is continuing to make progress in conducting the invento-
           ries. The Department took a more comprehensive, systematic approach to
           compiling the 2002 inventory, and is in the process of further refining its
           2003 inventory.


           The Department has taken several other actions to improve its competitive
           sourcing program, including the creation of a Department-wide council and
           a separate competitive sourcing staff as well as a training program for
           employees. OIG will continue to monitor the Department’s progress in its
           competitive sourcing program.




54   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
Financial Management


Assessment of the Department of State’s
Connection Approval Process, Independent
Validation and Verification Protocol, and
System Certification and Accreditation
Process (AUD/FM-03-30)

    Beginning in 1997, in its independent auditor’s report on the Department’s
financial statements, a contract auditor reported a material weakness related to
information system security. The Department stated that two recommended correc-
tive actions for this material weakness would be addressed as part of its process to
implement OpenNet Plus, which would constitute a program of system vulnerability
assessment and mitigation.

    At the direction of OIG, an external systems contractor reviewed the
Department’s OpenNet Plus connection approval process, including the independent
validation and verification protocol, and the system certification and accreditation
process. The systems contractor found that, although the connection approval
process was a positive step, it was not sufficient to constitute a program of system
vulnerability assessment and mitigation. In addition, the Department had not estab-
lished a Department-specific certification and accreditation process.



Information Technology Vulnerability
Assessment of the HYPERION Financial
Management Application (AUD/FM-03-37)

    The Government Management Reform Act of 1994 (PL 103-356) requires that
the Department’s principal financial statements be audited annually. Audits of the
principal financial statements require, among other things, understanding and assess-
ing the adequacy of the internal control process for recording, accumulating, and
reporting financial data. This, in turn, requires an assessment of the security over
the automated systems that process financial data. At OIG’s direction, independent
external computer specialists performed a vulnerability assessment of the
HYPERION Financial Management Application.



Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   55
           The independent specialists found that the specific security features associated
       with the HYPERION application appeared to function correctly and were well
       managed. In addition, security responsibilities were properly assigned and executed.
       A reasonable set of security policies and procedures existed and were being imple-
       mented. However, they were largely undocumented. A technical examination of the
       information technology infrastructure that supported the HYPERION application
       revealed only a limited number of relatively minor vulnerabilities.




       International Boundary and Water
       Commission, United States and Mexico, U.S.
       Section, Financial Statements, FY 2002 (AUD/
       FM-03-38)

           Under OIG’s direction, an independent external auditor audited the International
       Boundary and Water Commission, U.S. Section’s (USIBWC), financial statements as
       of September 30, 2002, to report on:
       •   whether the financial statements fairly present USIBWC’s financial position
           and results of financial operations in accordance with generally accepted
           accounting principles,
       •   to determine whether USIBWC has an internal control structure that provides
           reasonable assurance of achieving internal control objectives, and
       •   to determine whether USIBWC complied with applicable laws and regulations.

           USIBWC is charged by a series of treaties between the governments of the
       United States and Mexico with the application, regulation, and exercise of the
       provisions of such agreements for the solution of water and boundary problems
       along the U.S. Mexico boundary. For FY 2002, USIBWC reported assets of $357
       million.

          OIG issued an unqualified opinion on the USIBWC principal financial state-
       ments as of September 30, 2002. The audit did not identify any instances of non-
       compliance with laws and regulations that were considered necessary for disclosure.




56   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
                    INFORMATION TECHNOLOGY


Knowledge Management at the Department
of State: Learning From Successful
Principles and Practices (IT-A-03-08)

    Organizations increasingly are implementing knowledge management (KM)
strategies to maximize the benefits of what they know to help improve the efficiency
and effectiveness of their business operations. KM is a collaborative and integrative
approach to creating, capturing, organizing, accessing, using, and reusing intellectual
assets—to get the right information to the right people at the right time to support
management and decision-making. The Department is working to coordinate its
KM activities through the establishment of an Office of e-Diplomacy, which is
responsible for ensuring that information technology (IT) investments meet the
Department’s needs, are consistent with the administration’s e-government initiatives,
and fully exploit existing networks and web technologies.

    This report presents the results of OIG’s study of the Department’s strategy for
implementing KM through its Office of e-Diplomacy. Specific objectives of OIG’s
study were to evaluate the Department’s plans and project management structure for
coordinating KM initiatives and identify how effective practices from other federal,
international, and private organizations could be applied to help strengthen the
Department’s KM approach.

     The Office of e-Diplomacy is working to develop its strategy for implementing
KM Department-wide. The office has networked extensively with a range of public
and private organizations to compile ideas on effective approaches to instituting KM
in the Department. The office is undertaking a number of knowledge sharing
initiatives, including greater use of existing classified and unclassified government
networks for information exchange and collaboration, as well as the Group of Eight
KM project.

     In developing its Department-wide strategy, the Office of e-Diplomacy can
benefit from the effective approaches and lessons that OIG gleaned from its study
of the KM activities of other federal, international, and private organizations. Spe-
cifically, OIG identified five key principles and corresponding practices that exem-
plify the various aspects of KM. The five principles are:


Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   57
       •   recognizing the benefits of KM to the organization;
       •   ensuring organization-wide support for KM;
       •   appreciating the cultural factor in KM;
       •   building KM communities; and
       •   using information technology in KM.

           Noteworthy examples and case studies of successful KM activities illustrate how
       organizations carried out these principles and practices in real life. While providing
       useful ideas for developing a KM strategy, these principles and practices also serve to
       highlight the challenges the Department faces to successful KM implementation.
       The Department recognizes some of these challenges and has taken steps to address
       them, such as ensuring senior management oversight of KM. However, considering
       other barriers to effective KM and determining how best to overcome them will be
       key. For example, the Department still needs to identify business requirements, such
       as those of its core diplomatic functions, as a basis for formulating its knowledge
       sharing approach.

           Further, it needs to translate that planned approach into real-life implementation
       through community-building and IT tools, as well as ensure organization-wide
       commitment and a support structure for coordinating KM initiatives. A major
       challenge is to identify the cultural barriers to KM and determine how best to coun-
       teract them.




       Information Security Inspection & Evaluation
       of Embassy Vienna, Austria (IT-I-03-09)

           Embassy Vienna has a complex information systems security program that must
       cover three missions, each with exacting information needs and demanding security
       requirements. Much effort has been expended to bring the tri-missions into compli-
       ance with Department information systems security requirements in preparation for
       OpenNet Plus connectivity.

           In their August 18, 2003, response to the draft report, Embassy Vienna officials
       reported that all recommendations had been addressed or were in process. Specific
       actions on the recommendations are contained in the body of the report.




58   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
Review of the Information Security Program
at the Department (IT-A-03-15)

    In its FY 2003 evaluation of the effectiveness of the Department’s information
security program, OIG noted significant improvements since its 2002 report (IT-A-
02-06, September 2002), but found several key areas of security that still require
senior management attention. The Department recognizes that much more must be
done to develop fully and ensure the continuity of its systems security program. It
has provided an overview of its management approach to information security in its
FY 2003 draft Cyber Security Program Management Plan.

    During the first quarter of FY 2003, the Department’s Chief Information
Officer (CIO) asked the National Institute of Standards and Technology’s Computer
Security Expert Assist Team (CSEAT) to conduct an independent review of its
information security program, paying particular attention to what the Department
suspected to be its weakest areas. The Department concurred with the CSEAT
observations and recommendations and noted in its third quarter corrective action
plan report to OMB that it would be taking action to implement each of CSEAT’s
17 recommendations. OIG also found that the Department developed, and was
implementing, a systems authorization plan to provide certification and accreditation
for its new and existing major applications and general support systems.

     However, OIG noted several areas that still require senior management attention.
There was a material weakness in internal controls regarding the Department’s
financial management system, and a plan of action and milestones process to correct
this material weakness has not been reported to OMB in the quarterly corrective
action plans. The CIO reported in comments to a draft of this report that major
elements of the auditor findings are represented in different elements of the plan of
action and milestones process. However, OIG notes that a comprehensive plan of
action and milestones process addressing all aspects of the material weakness has not
been developed. Although a number of building blocks for a Department IT secu-
rity program are being developed, they are still immature and cannot yet be used as
management tools.

    Also, even though the Diplomatic Security Training Center and Foreign Service
Institute separately track training, OIG found that the Department does not centrally
track training for its personnel with significant responsibilities for information and
information systems security. Some overseas missions OIG visited while conducting




Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   59
       IT inspections had developed mission-wide information systems security plans, and
       OIG’s technical evaluations identified several weaknesses in mission information
       security management and technical and operational controls.

           The results from OIG’s two surveys were mixed and contained both improve-
       ments and setbacks from the previous year. In the first survey, for example, in FY
       2003, bureaus reported that 77 percent of their applications had security-level
       determinations (up from 72 percent in FY 2002). However, only three percent of
       applications had security plans (down from 15 percent in FY 2002). From the
       second survey, OIG learned that all five selected systems had a security-level deter-
       mination, but none had been certified and accredited.

            This report presents the results of OIG’s evaluation work in assessing the secu-
       rity of the Department’s IT resources. Several recommendations OIG made to
       correct the deficiencies identified in this evaluation either were already made in prior
       reports or will be made in reviews currently under way. The two recommendations
       contained in this report reflect the importance of making progress toward the
       completion of identifying, documenting, and creating linkages in IT security work
       that is currently under way within the Department.

          The Department is in agreement with the findings and recommendations of the
       report and reiterated its commitment to continued emphasis on cyber security to
       develop fully the initiatives that it has undertaken.




60   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
                                INVESTIGATIONS


Theft
    OIG opened an investigation in December 2002, based on information that a
contract employee in a Department warehouse in Virginia was stealing government
property, including digital cameras and power tools, and was selling these items to
various pawnshops. The investigation confirmed that the contract employee had
pawned and sold specific items that had been listed on Department inventory
records. In April 2003, in an interview with OIG investigators, the contract em-
ployee admitted to having pawned a total of 55 warehouse items valued at approxi-
mately $18,000, and was immediately terminated from employment at the Depart-
ment. In July 2003, the contract employee pleaded guilty to a felony charge of theft
of government property. Sentencing was pending at the end of this reporting
period.



Employee Misconduct
    OIG received information that an employee falsely claimed two days of absence
from work for jury duty. OIG’s investigation determined that the employee falsified
documentation from the District of Columbia Superior Court that the employee
submitted to justify the leave. When interviewed, the employee admitted to not
having served on jury duty on the days in question and having had submitted the
phony documentation to avoid taking leave without pay. On July 22, 2003, the
Bureau of Human Resources issued a four-day suspension to the employee.


     OIG received information that a contract employee of the Department sent a
letter to an assistant state’s attorney in Charles County, Maryland on Department
letterhead. The contract employee was requesting favorable consideration in the
upcoming sentencing of the contract employee’s spouse. When interviewed, the
contract employee admitted to having sent the letter in question, but added that it




Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   61
       was at the instruction of the contract employee’s attorney’s assistant to use Depart-
       ment letterhead when writing the letter. On August 19, 2003, the contract employee
       was terminated from employment with the Department.


           OIG conducted an investigation into allegations that a senior Department
       manager improperly released non-public information to an outside entity. On May
       23, 2003, the Bureau of Human Resources issued a Letter of Admonishment to the
       employee.



       Types of Cases




       Grant Mischarges
            OIG opened an investigation in July 2001, based on information developed in an
       OIG audit indicating that a Department grantee had apparently charged Department
       grant funds for travel costs that were not incurred. During the investigation, OIG
       investigators and auditors provided detailed information regarding this practice to
       the U.S. Attorney’s Office for the Eastern District of Virginia. On April 7, 2003, the
       U.S. Attorney’s Office informed OIG that the grantee organization had signed a
       settlement agreement and, in accordance with the terms of this agreement, had
       repaid the U.S. government $25,000.




62   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
Follow-up Actions
    OIG opened an investigation in 2002, based upon a complaint that the president
of a company providing explosives ordnance detection (EOD) dogs and handlers to
the Department as a subcontractor had made false statements about the company’s
qualifications and was providing the Department with dogs and handlers that could
not meet the standards claimed by the company. The company had begun to
provide EOD detector dogs and handlers to several federal entities, including the
Department, after September 11, 2001. This became a joint investigation with the
Offices of Inspector General of the Department of Homeland Security, the Federal
Reserve System, and the Department of the Treasury Inspector General for Tax
Administration.

    In April 2002, at the request of the Department’s Bureau of Diplomatic Security,
officials of the Bureau of Alcohol, Tobacco and Firearms administered a standard-
                                          ized test to six of the EOD dogs that the
                                          company had assigned to work at the
                                          Department. All six of the dogs failed the
                                          test. Immediately following this test, the
                                          primary contractor terminated its subcon-
                                          tract with this company.

                                                  On March 13, 2003, the president of
                                              the company was indicted by a federal
                                              grand jury in Alexandria, Virginia on
                                              multiple felony counts. On June 20, 2003,
                                              after an eight-day trial, the company presi-
                                              dent was found guilty on all counts in the
                                              indictment, including 25 counts of wire
                                              fraud and two counts of false statements.
                                              On September 8, 2003, the company
                                              president was sentenced to 78 months’
                                              imprisonment, and three years’ supervised
                                              probation. The company president was also
                                              fined $2,700 and ordered to make restitu-
                                              tion of $708,450.78. (See OIG Semiannual
                                              Report, October 1, 2002 to March 31, 2003,
                                              p. 59)




Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   63
           OIG opened an investigation in April 2002, based on information that the
       controller of a nonprofit organization receiving grant funds from the Department
       had improperly written checks to the controller and to the controller’s family. An
       OIG investigator, working with OIG auditors, was able to confirm this through
       analysis of available financial records. The subject of the investigation admitted to
       theft during an interview and in March 2003, pleaded guilty to a felony charge. On
       July 2, 2003, the controller was sentenced to five months’ incarceration, five months’
       home detention, and three years’ supervised probation, and also fined $100 and
       ordered to make restitution of $62,162.67. (See OIG Semiannual Report, October
       1, 2002 to March 31, 2003, p. 60)


           OIG opened an investigation in March 2001, based on information from the
       Office of Audits indicating that a former employee of a Department grantee may
       have been involved in the theft of grant funds. The purpose of the grant was to
       provide resources to a nongovernmental organization (NGO) to influence public
       opinion in favor of indicting Iraqi war criminals. The investigation developed
       evidence that the former employee of the NGO had charged personal expenditures
       to grant funds and had fraudulently increased the former employee’s own salary
       without the approval or knowledge of the supervisor. In November 2002, the
       former NGO employee pleaded guilty to a misdemeanor charge of bank larceny.
       On May 6, 2003, the former NGO employee was sentenced to six months’ home
       detention, and 18 months’ probation. The employee was fined $2,025, and was
       ordered to make restitution to the Department of $12,874.27. (See OIG Semiannual
       Report,October 1, 2002 to March 31, 2003, pp. 59-60)


            OIG received information that a Foreign Service officer (FSO) failed to file two
       required annual Financial Disclosure Reports despite repeated written reminders
       from the FSO’s own office. On January 24, 2003, the Bureau of Human Resources
       issued a three-day suspension of the officer for failure to follow instructions by not
       filing the Financial Disclosure Reports. On March 5, 2003, OIG referred the matter
       to the Civil Division of the Department of Justice because of the FSO’s continuing
       failure to file financial disclosure reports.

            On April 29, 2003, the FSO agreed to pay the Department of Justice $15,000 to
       settle the civil case. On May 9, 2003, the FSO paid the Department $600 in late
       filing fees for not filing three financial disclosure reports in a timely manner. (See
       OIG Semiannual Report, October 1, 2002 to March 31, 2003, p. 61)




64   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
Geographic Distribution of Ongoing
Investigations
                                  Near East and South Asia ............................ 0%

                                  East Asia and Pacific Islands ....................... 2%

                                  Africa ............................................................ 2%

                                  Europe ........................................................ 11%

                                  Western Hemisphere ................................. 13%

                                  Domestic .................................................... 72%




                    Non-compliance with Dodd Amendment

    Section 209 (c)(5)(B)(i) of the Foreign Service Act requires that any person
    named in an OIG final report of investigation be given the opportunity to
    refute any allegation of wrongdoing or assertion with respect to a material
    fact regarding that person’s actions. Instances of non-compliance are
    required to be reported to Congress in the OIG’s semiannual report with an
    explanation. During this reporting period, OIG issued a report of investiga-
    tion to the Bureau of Human Resources for appropriate administrative/
    disciplinary action concerning a FSO’s submission of fraudulent travel
    vouchers. Although assertions were made about the FSO’s spouse, who
    prepared and submitted the fraudulent vouchers, OIG did not interview the
    spouse. According to the employee and the Department’s Office of Medi-
    cal Services, the spouse is in poor health. Because of the delicate nature
    of the spouse’s medical condition, OIG made the decision not to interview
    the spouse during the investigation. Action on the Report of Investigation
    is still pending.




Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003         65
       Hotline
           The OIG Hotline, operated by the Office of Investigations, is a prompt, effec-
       tive channel for employees and others to report incidents of fraud, waste, abuse, and
       mismanagement to the Inspector General. Below is a summary of Hotline activity
       for the Department and BBG.


                         Held for action within OIG                           15

                         Referral to other offices for action                112

                         No action necessary                                  31

                         Total allegations received                          158




                         Held for action within OIG                    15

                         Referral to other offices for action                      112

                         No action necessary                           31




66   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
            APPENDIX 1: INVESTIGATIVE ACTIVITIES
ad                                                           Total Judicial Actions                    16
Workload                                                   Total Judicial Actions                           16

Cases pending 3/31/03                             43        Criminal
New cases opened                                  15        Prosecutive referrals                             3
Cases closed                                      21        Prosecutive declinations                          3
Cases pending 9/30/03                             37        Prosecutive dismissals                            0

Preliminary inquiries pending 3/31/03             22        Acquittals                                     0
Preliminary inquiries opened                      29        Indictments                                    2
Preliminary inquiries closed                      26        Convictions                                    2
Preliminary inquiries                                       Sentencings                                    3
     converted to cases                            7        Time sentenced                         89 months
Preliminary inquiries pending 9/30/03             18        Time probation                         90 months

                                                            Court-ordered fines                   $4,825.00
Total Administrative Actions                       9        Court-ordered restitutions          $783,487.72

Admonishments                                      1        Civil
Counseling                                         0        Referrals                                     1
Curtailment                                        0        Declinations                                  0
Demotions                                          0        Complaints                                    0
Reimbursements                                     0        Judgments                                     0
Reprimands                                         0        Court-ordered fines                  $40,600.00
Resignations                                       0        Recoveries                                    2
Suspensions                                        2        Total judgments
Terminations (DOS employees)                       0         and recoveries                       $40,600.00
Terminations (Contract employees)                  1
Administrative referrals                           5
Program Fraud and
  Civil Remedies Act referrals                     0
Savings                                            0



                   Administrative recoveries                           $ -0-
                   Judicial recoveries                                 $ 828,912.72
                   Total Investigative Recoveries                      $ 828,912.72



This
This appendix reflects investigative statistics for the Department only; investigative statistics for BBG are in
Appendix 1 of the BBG section of this report. The statistics and narrative case descriptions of investigative
appendix
activities appearing in this Semiannual Report are the result of reports received from prosecutive and
reflects
administrative authorities. The final actions may be changed at a later date by individual use of administrative
and judicial appeals processes.
investigative
statistics
Indictments   include formal criminal charges brought against a subject. The manner in which charges are
brought varies from country to country. Judicial recoveries include recoveries from judicial actions, including
for    the
court-ordered  fines and restrictions and civil judgements and recoveries. Administrative recoveries include
recoveries from administrative actions, such as reimbursements and savings.



Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003                 67
68   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
                       APPENDIX 2: REPORTS ISSUED


                                   Security and Intelligence Oversight


SIO-I-03-22           Limited-Scope Security Inspection of Embassy
                      Port of Spain, Trinidad & Tobago                                              08/03
SIO-I-03-27           Security Inspection of Embassy N’Djamena, Chad                                06/03
SIO-I-03-31           Limited-Scope Security Inspection of
                      U.S. Office Pristina, Kosovo                                                  04/03
SIO-I-03-36           Limited-Scope Security Inspection of Embassy
                      Brasilia, Brazil, & Constituent Posts                                         05/03
SIO-I-03-37           Security Compliance Follow-up Review of
                      Embassy Berlin, Germany & Constituent Posts                                   05/03
SIO-I-03-42           Limited-Scope Security Inspection of
                      Embassy Rangoon, Burma                                                        06/03
SIO-I-03-43           Security Inspection of Embassy Khartoum, Sudan                                07/03
SIO-I-03-44           Security Inspection of Consulate General Hamilton,
                      Bermuda                                                                       08/03
SIO-I-03-45           Limited-Scope Security Inspection of Embassy
                      Phnom Penh, Cambodia                                                          07/03
SIO-I-03-47           Limited-Scope Security Inspection of Embassy
                      Madrid and Consulate General Barcelona, Spain                                 08/03
SIO-I-03-48           Limited-Scope Security Inspection of Embassy
                      Vientiane, Laos                                                               06/03
SIO-I-03-49           Limited-Scope Security Inspection of Embassy
                      Lisbon & Consulate Ponta Delgada, Portugal                                    08/03
SIO-I-03-50           Limited-Scope Security Inspection of the U.S. Mission
                      To the United Nations                                                         07/03
SIO-I-03-51           Security Inspection of Embassy Suva, Fiji                                     09/03
SIO-I-03-52           Security Inspection of Embassy Port Moresby,
                      New Guinea                                                                    08/03
SIO-I-03-53           Security Inspection of Embassy Kolonia, Federated
                      States of Micronesia                                                          09/03
SIO-I-03-54           Security Inspection of Embassy Koror, Republic of Palau                       09/03
SIO-I-03-55           Security Inspection of Embassy Majuro, Marshall Islands                       09/03
SIO-C-03-56           Compliance Follow-up Review and Annual Foreign
                      National Employee Review of Embassy Moscow &
                      Constituent Posts                                                             09/03
SIO-I-03-59           Security Inspection of Embassy Lusaka, Zambia                                 09/03
SIO-I-03-60           Limited-Scope Security Inspection of Embassy Copenhagen                       09/03
SIO-I-03-61           Limited-Scope Security Inspection of Embassy
                      Reykjavik, Iceland                                                            09/03




    Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003      69
                                                     Inspections


     ISP-I-03-11          Inspection of Embassy Belgrade and Consulate Podgorica, Yugoslavia              07/03
     ISP-I-03-13          Inspection of the Office of Foreign Missions                                    06/03
     ISP-I-03-14          Inspection of Embassy Helsinki, Finland                                         07/03
     ISP-I-03-15          Inspection of Embassy La Paz, Bolivia                                           04/03
     ISP-I-03-16          Inspection of Embassy Oslo, Norway                                              07/03
     ISP-I-03-17          Inspection of U.S. Office Pristina, Kosovo                                      07/03
     ISP-I-03-18          Inspection of the Office of the Chief of Protocol                               07/03
     ISP-I-03-20          Inspection of Embassy Skopje, Macedonia                                         07/03
     ISP-I-03-21          Inspection of Embassy Stockholm, Sweden                                         07/03
     ISP-I-03-22          Inspection of Embassy Tirana, Albania                                           05/03
     ISP-CA-03-27         Review of the Issuance of Visas to the September 11, 2001, Terrorists           03/03
     ISP-C-03-28          Compliance Follow-up Review of the Inspection
                             of Embassy Abuja and Consulate General Lagos, Nigeria                        07/03
     ISP-I-03-29          Inspection of Embassy Antananarivo, Madagascar                                  08/03
     ISP-I-03-30          Inspection of Embassy Apia, Samoa                                               08/03
     ISP-I-03-31          Inspection of Embassy Canberra, Australia, and
                          Constituent Posts                                                               07/03
     ISP-I-03-32          Inspection of Embassy Georgetown, Guyana                                        09/03
     ISP-I-03-33          Inspection of the Bureau of International Organization Affairs                  09/03
     ISP-I-03-34          Inspection of the Office of the Legal Adviser                                   09/03
     ISP-I-03-35          Inspection of Embassy Lisbon, Portugal                                          09/03
     ISP-I-03-36          Inspection of Embassy Madrid and Consulate General Barcelona, Spain             09/03
     ISP-I-03-37          Inspection of Embassy Paramaribo, Suriname                                      09/03
     ISP-I-03-38          Inspection of Embassy Phnom Penh, Cambodia                                      08/03
     ISP-I-03-39          Inspection of Embassy Port of Spain, Trinidad and Tobago                        08/03
     ISP-I-03-40          Inspection of Embassy Rangoon, Burma                                            08/03
     ISP-I-03-41          Inspection of U.S. Mission to the United Nations                                09/03
     ISP-I-03-42          Inspection of Embassy Vientiane, Laos                                           08/03
     ISP-I-03-43          Inspection of Embassy Wellington, New Zealand                                   08/03
     ISP-C-03-44          Compliance Follow-up Review of Embassy Luanda, Angola                           07/03
     ISP-I-03-45          Inspection of Embassy Copenhagen, Denmark                                       09/03
     ISP-CA-03-46         Inspection of the Directorate of Visa Services, Bureau of Consular Affairs      08/03
     ISP-I-03-48          Inspection of the Bureau of Democracy, Human Rights and Labor                   09/03
     ISP-I-03-49          Inspection of Embassy Reykjavik, Iceland                                        09/03
     ISP-I-03-50          Inspection of Embassy Mexico City, Mexico, and Constituent Posts                09/03
     ISP-I-03-51          Cost of Living Allowance                                                        09/03
     ISP-CA-03-52         Diversity Visa Program Report                                                   09/03
     ISP-I-03-53          Post Assignment Travel Report                                                   09/03

                                                        Audits

     AUD/PPA-03-24        Review of Allegations Regarding the Office of Humanitarian
                          Demining Program’s Contract for Integrated
                          Mine Action Services                                                            09/03

     AUD/FM-03-30         Assessment of the Department of State’s Connection
                          Approval Process, Independent Validation & Verification
                          Protocol, & System Certification & Accreditation Process                        04/03




70   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
AUD/CG-03-33          Independent Accountant’s Report on
                      Application of Agreed-Upon Procedures to a Proposal
                      Submitted by J.A. Jones Construction to U.S. Department
                      of State in Response to U.S. Department of State Request
                      for Solicitation No. S-LMAQM-00-C-6035                                         05/03
AUD/GC-03-34          Report of Audit of Costs Claimed by the
                      International Research & Exchanges Board Under
                      U.S. Department of State Grant Numbers
                      IA-AECS-G7190351, IA-AEPS-G8190305
                      and IA-AEJL-G9190166 September 24, 1997,
                      through September 30, 2000                                                     05/03
AUD/PPA-03-35         Review of Legal Services Contract                                              05/03
AUD/FM-03-37          Information Technology Vulnerability Assessment
                      Of the HYPERION Financial Management Application                               07/03
AUD/FM-03-38          International Boundary & Water Commission, United
                      States & Mexico, U.S. Section, Financial Statements,
                      FY 2002                                                                        08/03
AUD/PPA-03-39         Review of Allegations Regarding Office of Foreign
                      Missions Information System Procurements                                       08/03
AUD/CG-03-41          Follow-up Review of the Institute of International
                      Education                                                                      09/03


                                          Information Technology

IT-A-03-08            Knowledge Management at the Department of
                      State: Learning From Successful Principles and
                      Practices                                                                      07/03
IT-I-03-09            Information Security Inspection & Evaluation of
                      Embassy Vienna, Austria                                                        09/03
IT-I-03-10            Information Technology Inspection & Evaluation
                      of Embassy Athens, Greece                                                      09/03
IT-A-03-15            Review of the Information Security Program
                           at the Department                                                         09/03




Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003           71
72   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES

                                                                  Table 1

                               INSPECTOR GENERAL ISSUED AUDIT REPORTS
                                       WITH QUESTIONED COSTS1

                                                             Number                          (Dollars in Thousands)
                                                           of Reports              Questioned Costs Unsupported Costs

   A.   For which no management
        decision has been made by
        the commencement of the
        reporting period                                        10                         12,318                     9,094

   B.   Which were issued during
        the reporting period                                     2                          4,795

        Subtotals (A+B)                                         12                         17,113                     9,094

   C.   For which a management
        decision was made during
        the reporting period
           - based on formal
        administrative or judicial appeal
        (i) dollar value of disallowed costs                      1                        2,600
        (ii) dollar value of costs
        not disallowed

   D.   For which no management
        decision has been made by the
        end of the reporting period                              11                        14,513                     9,094

        Reports for which no
        management decision was
        made within 6 months of
        issuance                                                10                         12,318                     9,094




    1
      Questioned costs are costs that are questioned by the OIG because of an alleged violation of a provision of a law, regulation,
    contract, grant, cooperative agreement, or other agreement or document governing the expenditure of funds; a finding that, at the
    time of the audit, such costs are not supported by adequate documentation; or a finding that the expenditure of funds for the
    intended purpose is unnecessary or unreasonable.




            Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003                          73
                                                        Table II


                             INSPECTOR GENERAL ISSUED AUDIT REPORTS
                  WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE1


                                                                            Number               Dollar Value
                                                                          of Reports            (in thousands)



       A        For which no management decision has
                been made by the commencement of the
                reporting period.                                               2                        670

       B.       Which were issued during the reporting
                period                                                          0                        0


                Subtotals (A+B)                                                 2                        670

       C.       For which a management decision was
                made during the reporting period                                0                        0

                 (i) dollar value of recommendations that
                  were agreed to by management                                  0                        0
                   —based on proposed management action
                   —based on proposed legislative action

                (ii) dollar value of recommendations
                 that were not agreed to by management                          0                         0

       D.       For which no management decision
                has been made by the end of the
                reporting period                                                2                        670

                Reports for which no management
                decision was made within 6 months
                of issuance.                                                    2                        670




       1
         A recommendation that funds be put to better use is a recommendation by the OIG that funds could be used
       more efficiently if Department management took actions to implement and complete the recommendations,
       including: reductions in outlays, deobligation of funds from programs or operations; withdrawal of interest
       subsidy costs on loans or loan guarantees, insurance, or bonds; costs not incurred by implementing
       recommended improvements related to the operations of the Department, a contractor, or a grantee,
       avoidance of unnecessary expenditures noted in preaward reviews of contract or grant agreements; or any
       other savings which are specifically identified.




74   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
               APPENDIX 4: RESOLUTION OF REPORTS &
                        RECOMMENDATIONS


                               PREVIOUSLY REPORTED SIGNIFICANT AUDIT
                              RECOMMENDATIONS1 PENDING FINAL ACTION2

Report Number 93-A-34/ARR-95-08
Grants Management Follow Up                             First Reported: 03/31/95

Recommendation No. 5                                    Require monthly reporting requirements on the project’s
                                                        status.

Recommendation No. 6                                    Ensure that data in the grants system is reconciled with
                                                        data in other grant-related systems.


APR-96-07
Exchange Visitor Information System                     First Reported: 03/31/96

Recommendation No. 3                                    Determine the feasibility of electronically transmitting J
                                                        Visa data from Sponsor organizations to the EVIS
                                                        database at USIA




      1
        Includes audit recommendations reported as significant in Semiannual reports prior to March 31, 2003, on
      which the Department management has agreed to take corrective action but for which those actions are not
      yet complete.

      2
       Final action is recorded when a proposed course of action in response to a recommendation has been
      accepted by OIG and completed by management to OIG’s satisfaction.




      Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003             75
76   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
      APPENDIX 2: RP   REFACE
                     EPORTS ISSUED
    BROADCASTING
      APPENDIX 2:BOARD    OF GIOVERNORS
                    REPORTS     SSUED
APPENAPPENDIX 3: SAAVINGS
                    UDITS & MORE EFFECTIVE
 USE OF RESOURCESDIX
           INFORMATION 2: RTEPORTS  ISSUED
                            ECHNOLOGY


Review of Strategic Management of Human Capital and
Workforce Planning Initiatives at the Broadcasting
Board of Governors (IBO-A-03-02)

    The President’s Management Agenda (PMA) requires all federal agencies to
prepare comprehensive plans to remove management layers; attract a high-quality,
diverse workforce; and link workforce needs directly to the achievement of strategic
objectives. PMA guidance calls for the creation of a results-oriented, performance-
based culture in which agencies recruit, train, and retain the right people with the
right skills to ensure success. Under PMA, the OMB, Office of Personnel Manage-
ment (OPM), and GAO have prepared consolidated guidance, Human Capital
Standards of Success, to help agencies develop these plans.

    PMA underscores the need for agencies to link their human capital planning
efforts clearly and directly with their strategic and program plans developed under
the Government Performance and Results Act of 1993 (PL 103-62). In response,
the Broadcasting Board of Governors’ International Broadcasting Bureau (IBB)
prepared both workforce restructuring plans and an outline for a human capital plan,
but these plans do not encompass all IBB staff nor meet the criteria set forth in the
consolidated guidance. Moreover, the plans do not fully comply with OMB stan-
dards requiring agencies to link program goals with performance measures and
results.

    The agency uses its annual language service review to systematically evaluate
performance, results, and service priorities as well as align organizational endeavors.
However, the lack of a detailed human capital plan makes it difficult to measure how
effectively the agency can validate its workforce planning and restructuring efforts.

     OIG reviewed IBB’s workforce restructuring and human capital plans to deter-
mine whether IBB was facing challenges in complying with the PMA goals and OMB
standards. OIG found that IBB was facing major human capital challenges in
striving to meet the PMA. For example, the agency told OIG that after a series of
nine staffing reductions between 1994 and 2000, it was challenged to meet its mis-



Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   77
       sion while assuming the legal, security, procurement, training, personnel, and other
       administrative functions it inherited when it became an independent entity in 1999.
       According to the IBB Workforce Restructuring Plan for 2003-07 (September 24,
       2001) and the BBG Workforce Analysis (July 3, 2001) to OMB by the chief of staff,
       the agency lacked expertise in administration, management, and budgeting, which
       adversely affected the support of its managers needed to make day-to-day adminis-
       trative and programmatic decisions.

            During this review, agency managers told OIG that many staff members needed
       training to adapt to changing broadcasting skill sets in order to respond more effec-
       tively to immediate and emerging broadcast demands.

            IBB employees are closer to retirement, higher graded, better paid, and have
       fewer years of service when compared with other federal employees. According to
       IBB workforce plans, by 2007 up to 83 percent of current managers and supervisors
       and 67 percent of other current staff will be eligible for retirement. Additionally,
       given standard attrition rate projections, up to an additional 24 percent of staff not
       eligible for retirement may also depart over the next few years. By contrast, only 35
       percent of the federal workforce will be eligible to retire during the same period.

           IBB has made progress in diversifying its workforce through recruitment, train-
       ing, and other initiatives. OIG found, however, that IBB did not provide specific
       plans for establishing a more diverse workforce.

           From its own assessment, IBB faces significant human capital challenges, such as
       an aging workforce, succession planning, and adapting to changes in technology
       indicative of trends throughout the federal workforce. A human capital crisis, as
       described by GAO, may be imminent. As the administration places greater impor-
       tance on linking strategic goals, performance management, budget allocation, and
       results under OMB’s new Performance Assessment Review Tool process, IBB needs
       to make improvements in its workforce planning effort or risk a diminished ability to
       compete for resources in a tight fiscal environment.




       Review of Radio Free Asia Activities, (IBO-A-
       03-05)

           Radio Free Asia (RFA) appeared to be achieving its broadcasting mission. Gov-
       ernment restrictions on foreign media in the countries to which it broadcasts have
       severely limited scientifically based research on audience size. Nonetheless, various


78   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
indicators pointed to RFA’s effectiveness, including audience research studies, inter-
nal program reviews, and other external effectiveness measures. Despite the sizable
challenges associated with broadcasting to countries with restricted political, social,
and media conditions, and owing largely to dedicated staff, RFA seemed to be
producing a quality product.

                                                            RFA could improve its adminis-
                                                       trative policies and procedures,
                                                       particularly in the areas of budget-
                                                       ing, procurement, and human
                                                       resources. Specifically, procedures
                                                       for establishing and managing its
                                                       budget did not include input from
                                                       all managers and were not clear to
                                                       all. In addition, concerns regarding
                                                       the budget process appeared to be
                                                       affecting the morale of some
  Listeners’ Forum call-in show from Phnom Penh        employees.

    Regarding procurement, RFA did not always follow required procurement
standards. Under terms set forth in its grant agreement, RFA was to make every
reasonable effort to meet the requirements outlined in selected OMB circulars. In
some cases, its policies and procedures were not fully consistent with these circulars;
for example, with regard to competition.

   RFA has matured as an organization since it began broadcasting in 1996. With
organizational growth and development has come a need for increased attention to
human resources, including more standardized hiring practices and improved staff
management. Current practices are a mix of competitive and noncompetitive
processes, raising questions of fairness in hiring.




Management Review of Selected Benefits for
Radio Free Europe/Radio Liberty Employees
(IBO-A-03-07)

     Radio Free Europe/Radio Liberty (RFE/RL), a grantee under the BBG, broad-
casts in more than 30 different languages to an audience estimated at 35 million
listeners in Southeastern Europe, Russia, the Caucasus, Central Asia, and the Middle



Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   79
       East. Language service priorities can change rapidly. The need to hire staff with
       specific broadcasting and language skills, and yet remain within an imposed ceiling
       on the number of regular employees, requires RFE/RL to have flexibility in its
       employment practices. In the past four years, for example, RFE/RL has initiated
       broadcast services in seven new languages, including broadcasts to Iraq, Iran,
       Kosovo, Macedonia, Latvia, Afghanistan, and the Northern Caucasus.

           Assigning employee benefits, so as not to exceed funding levels granted by
       Congress through BBG, and meeting local and U.S. government labor laws is a major
       challenge for RFE/RL. The primary objective of this OIG management review was
       to evaluate the assignment of benefits for health, life, and retirement. A second
       objective was to analyze the process for selecting benefit providers.

            From its Prague and Washington, D.C., offices, RFE/RL broadcasts using a
       multinational staff of 602 employees. To start up a language service or implement
       new programming, RFE/RL must rapidly hire personnel on a temporary basis with
       only partial benefits. Temporary employees, usually on a fixed contract for one year,
       may later be converted to open-ended contracts that include health, life, and retire-
       ment benefits. Some temporary employees have worked as long as five years, sign-
       ing, serially, one-year contract extensions that include health care as a benefit. U.S.
       citizens or citizens of a country other than the Czech Republic are hired under
       several types of contracts, which include different benefits. Both regular and tempo-
       rary Czech employees receive benefits according to laws in the Czech Republic that
       require that all employees have a contract, regardless of their nationality.

           The Washington office of RFE/RL manages all major benefit programs through
       the Employee Benefit Advisory Committee (EBAC), which includes investment
       consultants and representatives from local law firms. EBAC reviews current benefits
       and decides whether the provider should be changed or the contracts amended,
       subject to agreement by the RFE/RL Board of Directors.

            OIG reviewed employee records and human resource policies for health, life,
       and retirement programs and determined that RFE/RL had a consistent, equitable
       process in place for the assignment of employee benefits. Recommendations in-
       cluded in this review were made to update enrollments in benefit payments and to
       verify with experts that employment contracts used by RFE/RL were in accordance
       with applicable Czech Republic and U.S. labor laws. An independent review of labor
       laws would ensure that the present assignment of personnel benefits, based on an
       employment contract, is correct. RFE/RL, with its multinational staff, has been
       diligent in assigning benefits according to local labor law. That same diligence needs
       to be applied as operations evolve across RFE/RL’s broadcasting region.




80   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
    The process RFE/RL uses to select benefit providers considers cost, customer
service, and whether the provider has the ability to service a multinational client. In
FY 2002, providers were selected for health insurance and life and disability insur-
ance. RFE/RL’s selection of benefit providers was a detailed process using qualified
RFE/RL employees and outside consultants. In FY 2003, a new solicitation is being
made for the investment manager for the Retirement Savings Plan (RSP). During the
review, OIG advised RFE/RL that the enrollment of eligible employees for the RSP
should be automatic. RFE/RL then took decisive action and implemented auto-
matic enrollment on May 1, 2003.




Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   81
82   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
         BROADCASTING BOARD OF GOVERNORS
             INFORMATION TECHNOLOGY

Review of the Information Security
Program at the Broadcasting Board of
Governors (IT-A-03-14)

    In response to the Federal Information Security Management Act of 2002
(FISMA), OIG performed an independent review and evaluation of the information
security program of BBG. Replacing the Government Information Security Reform
Act, FISMA provides a comprehensive framework for establishing and ensuring the
effectiveness of controls over IT resources that support federal operations and assets
and a mechanism for improved oversight of federal agency information security
programs. Also, OMB implementation guidance for FISMA requires OIGs to assess
development, implementation, and management of the agency-wide plan of action
and milestones process and to focus on performance measures. The specific objec-
tives of OIG’s review were to assess BBG’s progress in developing its computer
security program and implementing the requirements of the law.

     To fulfill the review objectives, OIG met with BBG officials from IBB, Voice of
America (VOA), Office of Cuba Broadcasting, and four overseas transmitting
stations in Germany. OIG did not conduct a detailed review of BBG’s grantee
organizations, RFE/RL and RFA, but did hold meetings and gathered relevant
documentation to assess each organization’s strategic approach to handling IT
information security. Both grantees are private, nonprofit organizations that own
and operate their own IT systems.

    OIG’s evaluation of BBG’s information security program concluded that BBG
has made limited progress in the past year and much more needs to be done to
comply with FISMA. BBG has developed a comprehensive system security plan for
the IBB Office of Computing Services; performed program-level self-assessments;
and documented the results of the self-assessments in quarterly reporting to OMB
of the agency’s plan of action and milestones process. The first three FY 2003
quarterly reports to OMB identified 220 information security weaknesses, of which
136 had been corrected. In addition, BBG hired a contractor to assist BBG’s Office
of Computing Services to meet FISMA requirements. However, despite this
progress, several key areas of information security still require management atten-
tion. BBG concurred with the five recommendations included in OIG’s FISMA
evaluation report and will be taking actions to ensure their implementation.


Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   83
84   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
              BROADCASTING BOARD OF GOVERNORS
              APPENDIX 1: INVESTIGATIVE ACTIVITIES

Workload

                 Workload


                 Cases pending 3/31/03                                        1
                 New cases opened                                             2
                 Cases closed                                                 0
                 Cases pending 9/30/03                                        3


                 Preliminary inquiries pending 3/31/03                        0
                 Preliminary inquiries opened                                 1
                 Preliminary inquiries closed                                 0
                 Preliminary inquiries converted to cases                     0
                 Preliminary inquiries pending 9/30/03                        1


                 Total Judicial Actions                                       0


                 Prosecutive Referral                                         0
                 Prosecutive Declination                                      0


                 Total Administrative Actions                                 1


                 Referrals                                                    1




            The statistics and narrative case descriptions of investigative activities
            appearing in this semiannual report are the result of reports received from
            prosecutive and administrative authorities. The final actions may be
            changed at a later date by individual use of administrative and judicial ap-
            peals processes.




  Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   85
86   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
          BROADCASTING BOARD OF GOVERNORS
             APPENDIX 2: REPORTS ISSUED

                                            Audits


IBO-A-03-02         Review of Strategic Management of Human Capital and
                    Workforce Planning Initiatives at the Broadcasting
                    Board of Governors                                  09/03
IBO-A-03-05         Review of Radio Free Asia Activities                08/03
IBO-A-03-07         Management Review of Selected Benefits for Radio
                    Free Europe/Radio Liberty Employees                 09/03

                                  Information Technology


IT-A-03-14          Review of the Information Security Program at the
                    Broadcasting Board of Governors                              09/03




Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   87
88   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
           BROADCASTING BOARD OF GOVERNORS
           BROADCASTING
                  APPENDIXB3: P  OF GOVERNORS
                              SREFACE
                            OARDAVINGS  &
     A   BROADCASTING
               1:        BOARD AOF  GOVERNORS
            M
       PPENDIX
             ORE  E         U
                  INVESTIGATIVE
                   FFECTIVE   SE          UASEPPENDIX
                                    RESOURCES
                                  CTIVITIES
APPENDIX 3: SAVINGS & MORE EFFECTIVE
                                 OF                   4:
                                                OF RESOURCES
              RESOLUTION OF REPORTS & RECOMMENDATIONS
                                                  Table 1

                                                   Table 1

                      INSPECTOR GENERAL ISSUED AUDIT REPORTS
                              WITH QUESTIONED COSTS

                                              Number                  (Dollars in Thousands)
                                             of Reports             Questioned      Unsupported
                                                                      Costs            Costs

  A. For which no management
     decision has been made by
     the commencement of the
      reporting period                             0                     0                    0

  B. Which were issued during
     the reporting period                          0                     0                    0

      Subtotals (A+B)                              0                     0                    0

  C. For which a management
     decision was made during
     the reporting period
     - based on formal
     administrative or judicial appeal
     (i) dollar value of disallowed costs         0                      0                    0
     (ii) dollar value of costs
     not disallowed                               0                      0                    0

  D. For which no management
     decision has been made by the
     end of the reporting period                   0                     0                    0

      Reports for which no
      management decision was
      made within 6 months of issuance             0                     0                    0




        Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   89
                                                   Table II


                           INSPECTOR GENERAL ISSUED AUDIT REPORTS
                 WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE


                                                                     Number           Dollar Value
                                                                    of Reports      (in thousands)

       A       For which no management decision has
               been made by the commencement of the
               reporting period.                                        11                426

       B.      Which were issued during the reporting
               period                                                   1                 231

               Subtotals (A+B)                                          2                 657

       C.      For which a management decision was
               made during the reporting period                         2                 657

                (i) dollar value of recommendations that
                 were agreed to by management                           2                 657
                  —based on proposed management action
                  —based on proposed legislative action

               (ii) dollar value of recommendations
                that were not agreed to by management                   0                  0

       D.      For which no management decision
               has been made by the end of the
               reporting period                                         0                  0

               Reports for which no management
               decision was made within 6 months
               of issuance.                                             0                  0




       1
        Report was issued during the last OIG semiannual reporting period in March 2003; however,
       this figure was not reported.



90   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
        BROADCASTING BOARD OF GOVERNORS
Significant Problems, Abuses and Deficiencies

    The Review of Strategic Management of Human Capital and Workforce Planning Initiatives
at BBG brought attention to the very serious management challenges facing the
agency. To its credit, BBG has been able to meet its mission notwithstanding these
challenges and has taken some welcomed first steps to address problems in its
human capital initiative that are typical of those on which the PMA focuses. How-
ever, much remains to be done to ensure the health of the agency.

     The Review of Radio Free Asia Activities pointed out that RFA needed to improve its
administrative policies and procedures, particularly in the areas of budgeting, pro-
curement, and human resources. Morale of employees was adversely affected, which
likely had a bearing on the vote by RFA employees to unionize, making it the first
BBG grantee to have a union represent them. Regarding procurement, RFA did not
always follow required procurement standards. Hiring practices also were a mix of
competitive and noncompetitive processes, raising questions about fairness in hiring.
A general lack of transparency provided a fertile breeding ground for accusations,
some of which had no merit, but which were not helpful in terms of the overall
atmosphere.




Significant Management Success in
Implementing OIG Recommendations

    BBG deserves acknowledgment for the quick and decisive action it took in
addressing OIG recommendations in Review of Radio Free Asia Activities. These
corrective actions included making personnel changes, ensuring transparency and
avoiding the appearance of favoritism in hiring practices, and closing the Tokyo news
bureau. OIG believes RFA has been strengthened by the recommendations and the
agency’s actions. Moreover, BBG has indicated that the Board of Governors intends
to increase its oversight of grantees.




Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   91
92   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
                       LIST OF ABBREVIATIONS

                             A        Bureau of Administration
                       ACDA           Arms Control and Disarmament Agency
                         BBG          Broadcasting Board of Governors
                     CA/VO            Bureau of Consular Affairs, Directorate of Visa
                                      Services
                         CDC          Centers for Disease Control
                      CSEAT           Computer Security Expert Assist Team
                        DCM           Deputy chief of mission
                        DEA           Drug Enforcement Administration
                         DRL          Bureau of Democracy, Human Rights and Labor
                          DV          Diversity Visa Program
                       EBAC           Employee Benefit Advisory Committee
                        EOD           Explosives ordnance detection
                      FFMIA           Federal Financial Management Improvement Act
                                      of 1996
                      FISMA           Federal Information Security Management Act

                APPENDIX 2:  2:RService         ISSUED
                         FTA          Free Trade Agreement
                  APPENDIX        REPORTS
                                 EPORTS             ISSUED
                A  FSN
                 PPENDIX
                APPENDIX
                   FSO
                         2:   R
                         Foreign
                         Foreign
                                 EPORTS
                         2: RService
                                 EPORTS
                                        national
                                                I SSUED
                                        officer ISSUED

                APPENDIX
                   GAO   2: REPORTS
                         General                ISSUED
                                 Accounting Office
                          IBB         International Broadcasting Bureau
                       ICASS          International Cooperative Administrative Support
                                      Services
                        IMAS          Integrated Mine Action Support contract
                          INL         Bureau of International Narcotics and Law
                                      Enforcement Affairs
                           IIE        Institute of International Education
                           IO         Bureau of International Organization Affairs



Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003   93
     APPENDIX 3: SITAVINGS   & Mtechnology
                        Information ORE EFFECTIVE USE OF
                 KM     R  ESOURCES
                        Knowledge management
                                    L        Office of the Legal Adviser
                                   M         Office of the Under Secretary for Management
                                MPP          Mission Performance Plan
                               NGO           Nongovernmental organizations
                                NIV          Nonimmigrant visa
                               OBO           Bureau of Overseas Buildings Operations
                                OIG          Office of Inspector General
                               OFM           Office of Foreign Missions
                               OMB           Office of Management and Budget
                               PART          Performance Assessment Review Tool
                                PMA          President’s Management Agenda
                                RFA          Radio Free Asia
                           RFE/RL            Radio Free Europe/Radio Liberty
                           RM/SPP            Bureau of Resource Management, Office of
                                             Strategic Policy and Planning
                                 RSP         Retirement Savings Plan
                             USAID           U.S. Agency for International Development
                           USIBWC            International Boundary and Water Commission,
                                             U.S. Section
                              USUN           U.S. Mission to the United Nations
                                VOA          Voice of America




94   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
                          INDEX OF REPORTING REQUIREMENTS
                  INSPECTOR GENERAL ACT OF 1978, AS AMENDED



R EQUIREMENT S UBJECT                                                                    PAGE NUMBERS

Section 4(a)(2)   Review of legislation and regulations                                               13-14
Section 5(a)(1)   Significant problems, abuses, and deficiencies                              21-66, 75-78
Section 5(a)(2)   Significant recommendations for corrective action                           21-66, 75-78
Section 5(a)(3)   Prior significant recommendations unimplemented                                            73
Section 5(a)(4)   Matters referred to prosecutive authorities                                         59-66
Section 5(a)(5)   Information or assistance refused                                                   None
Section 5(a)(6)   List of reports issued                                                              69-70
Section 5(a)(7)   Summaries of significant reports                                            21-66, 75-78
Section 5(a)(8)   Audit reports–questioned costs                                                     71, 80
Section 5(a)(9)   Audit reports–funds to be put to better use                                        72, 80
Section 5(a)(10) Prior audit reports unresolved                                                      74, 81
Section 5(a)(11) Significant revised management decisions                                             None
Section 5(a)(12) Significant management decisions with which OIG disagreed                            None




        Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 2003        95
                 FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                         of Federal programs and resources
                                  hurts everyone.

                               Call the Office of Inspector General
                                             HOTLINE
                                            202/647-3320
                                        or 1-800-409-9926
                                 or e-mail oighotline@state.gov
                               to report illegal or wasteful activities.

                                        You may also write to
                                     Office of Inspector General
                                      U.S. Department of State
                                        Post Office Box 9778
                                        Arlington, VA 22219

                              Please visit our website at oig.state.gov

                                  Cables to the Inspector General
                                 should be slugged “OIG Channel”
                                      to ensure confidentiality.




98   Office of Inspector General Semiannual Report to the Congress, April 1, 2003 to September 30, 3003
